<html>
<title> - FACIAL RECOGNITION TECHNOLOGY (PART III): ENSURING COMMERCIAL TRANSPARENCY AND ACCURACY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]






 
                     FACIAL RECOGNITION TECHNOLOGY

                              (PART III):

                    ENSURING COMMERCIAL TRANSPARENCY

                              AND ACCURACY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                              
                          OVERSIGHT AND REFORM
                          
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 15, 2020

                               __________

                           Serial No. 116-82
                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
 
      


                  Available on: http://www.govinfo.gov
                         oversight.house.gov or
                             docs.house.gov                             
                             
                             
                             ______                      


               U.S. GOVERNMENT PUBLISHING OFFICE 
39-581PDF               WASHINGTON : 2020                             
                             
                             
                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Debbie Wasserman Schultz, Florida    Michael Cloud, Texas
John P. Sarbanes, Maryland           Bob Gibbs, Ohio
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Ralph Norman, South Carolina
Robin L. Kelly, Illinois             Chip Roy, Texas
Mark DeSaulnier, California          Carol D. Miller, West Virginia
Brenda L. Lawrence, Michigan         Mark E. Green, Tennessee
Stacey E. Plaskett, Virgin Islands   Kelly Armstrong, North Dakota
Ro Khanna, California                W. Gregory Steube, Florida
Jimmy Gomez, California              Fred Keller, Pennsylvania
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California
Deb Haaland, New Mexico

                     David Rapallo, Staff Director
                   Yvette Badu-Nimako, Senior Counsel
                    Courtney French, Senior Counsel
                           Gina Kim, Counsel
                          Alex Kiles, Counsel
                    Amy Stratton, Deputy Chief Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                      
                                 ------                                
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on January 15, 2020.................................     1

                               Witnesses

*  Opening statements, and prepared statements for the witnesses 
  are available at: docs.house.gov.

Brenda Leong, Senior Counsel and Director of AI and Ethics Future 
  of Privacy Forum
    Oral Statement...............................................     6

Dr. Charles Romine, Director, Information Technology Laboratory, 
  National Institute of Standards and Technology
    Oral Statement...............................................     7

Meredith Whittaker, Co-Founder and Co-Director, AI Now Institute, 
  New York University
    Oral Statement...............................................     9

Daniel Castro, Vice President and Director of Center for Data 
  Innovation, Information Technology and Innovation Foundation
    Oral Statement...............................................    11

Jake Parker, Senior Director of Government Relations, Security 
  Industry Association (SIA)
    Oral Statement...............................................    13


                           INDEX OF DOCUMENTS

                              ----------                              

The documents listed below may be found at: docs.house.gov.

  * Report from the American Civil Liberties Union; submitted by 
  Chairwoman Maloney.

  * Study from the National Institute of Science and Technology; 
  submitted by Chairwoman Maloney.

  * Statement of Chief James Craig, Detroit Police Department; 
  submitted by Rep. Higgins.

  * Letter from the BTU; submitted by Rep. Pressley.

  * Letter from the National Association for the Advancement of 
  Colored People; submitted by Rep. Pressley.

  * Letter from the American Federation of Teachers, 
  Massachusetts; submitted by Rep. Pressley.

  * Letter from the Massachusetts Teachers Association; submitted 
  by Rep. Pressley.

  * Letter from the American Civil Liberties Union; submitted by 
  Rep. Pressley.

  * Report from the Detroit Community Technology Projects; 
  submitted by Rep. Tlaib.

  * Report from the American Civil Liberties Union, "Amazon's 
  Face Recognition Software Falsely Matched 28 Members of 
  Congress with Mugshots," submitted by Rep. Gomez.


                     FACIAL RECOGNITION TECHNOLOGY

                              (PART III):

                    ENSURING COMMERCIAL TRANSPARENCY

                              AND ACCURACY

                              ----------                              


                      Wednesday, January 15, 2020

                  House of Representatives,
                 Committee on Oversight and Reform,
              Subcommittee on Economic and Consumer Policy,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:02 a.m., in 
room 2154, Rayburn House Office Building, Hon. Carolyn B. 
Maloney, presiding.
    Present: Representatives Maloney, Norton, Lynch, Cooper, 
Connolly, Krishnamoorthi, Kelly, DeSaulnier, Lawrence, 
Plaskett, Khanna, Gomez, Ocasio-Cortez, Pressley, Tlaib, 
Haaland, Jordan, Foxx, Massie, Meadows, Hice, Grothman, Comer, 
Cloud, Higgins, Miller, Green, Armstrong, Steube, and Keller.
    Chairwoman Maloney. The committee will come to order.
    Good morning, everyone. And without objection, the chair is 
authorized to declare a recess of the committee at any time. 
With that, I would now like to recognize myself to give an 
opening statement.
    Today, the committee is holding our third hearing this 
Congress on a critical issue, facial recognition technology. It 
is clear that despite the private sector's expanded use of 
technology, it is just not ready for primetime. During this 
hearing, we will examine the private sector's development, use, 
and sale of technology, as well as its partnerships with 
government entities using this technology.
    We learned from our first hearing on May 22 of 2019 that 
the use of facial recognition technology can severely impact 
Americans' civil rights and liberties, including the right to 
privacy, free speech, and equal protection under the law. We 
learned during our second hearing on June 4 how Federal, state, 
and local government entities use this technology on a wide 
scale, yet provide very little transparency on how and why it 
is being used or on security measures to protect sensitive 
data.
    Despite these concerns, we see facial recognition 
technology being used more and more in our everyday lives. The 
technology is being used in schools, grocery stores, airports, 
malls, theme parks, stadiums, and on our phones, social media 
platforms, doorbell camera footage, and even in hiring 
decisions, and it is used by law enforcement. This technology 
is completely unregulated at the Federal level, resulting in 
some questionable and even dangerous applications.
    On December 2019, the National Institute of Standards and 
Technology issued a new report finding that commercial facial 
recognition algorithms misidentified racial minorities, women, 
children, and elderly individuals at substantially higher 
rates. I look forward to discussing this study with Dr. Romine, 
the Director of NIST's Information Technology Laboratory, who 
is joining us today. I also look forward to hearing from our 
expert panel hailing from academia, industry, and the advocacy 
community on recommended actions policymakers should take into 
account to address potential consumer harm based on these 
findings.
    Our examination of facial recognition technology is a 
bipartisan effort. I applaud Ranking Member Jordan's tireless 
and ongoing advocacy on this issue. We have a responsibility to 
not only encourage innovation, but to protect the privacy and 
safety of American consumers. That means educating our fellow 
members and the American people on the different uses of the 
technology and distinguishing between local, subjective, 
identification, and surveillance uses. That also means 
exploring what protections are currently in place to protect 
civil rights, consumer privacy, and data security and prevent 
misidentifications, as well as providing recommendations for 
future legislation and regulation.
    In that vein, I would like to announce today that our 
committee is committed to introducing and marking up common 
sense facial recognition legislation in the very near future. 
And our hope is that we can do that in a truly bipartisan way. 
We have had several conversations, and I look forward to 
working together toward that goal.
    I now recognize the distinguished Ranking Member Jordan for 
his opening statement.
    Mr. Jordan. Thank you, Madam Chair. We appreciate your 
willingness to work with us on this legislation. We have a bill 
that we will want to talk about as well.
    Facial recognition is a powerful new technology that is 
being widely used by both government agencies and private 
sector companies. Its sales have experienced a 20 percent year-
to-year growth since 2016, and the market is expected to be 
valued at $8.9 billion by 2022.
    Increasingly, local, state, and Federal Government entities 
are utilizing facial recognition technology under the guise of 
law enforcement and public welfare, but with little to no 
accountability. With this technology, the Government can 
capture faces in public places, identify individuals, which 
allows the tracking of our movements, patterns, and behavior. 
All of this is currently happening without legislation to 
balance legitimate Government functions with American civil 
liberties. That must change.
    And while this hearing is about commercial uses of facial 
recognition, I want to be very clear. I have no intention of 
unnecessarily hampering technological advancement in the 
private sector. We understand and appreciate the great promise 
that this technology holds for making our lives better. It is 
already improving data security and leading to greater 
efficiency in verification and identification that prevents 
theft and protects consumers.
    The urgent issue, the urgent issue we must tackle is 
reining in the Government's unchecked use of this technology 
when it impairs our freedoms and our liberties. Our late 
chairman, Elijah Cummings, became concerned about Government 
use of facial recognition technology after learning it was used 
to surveil protests in his district related to the death of 
Freddie Gray. He saw this as a deeply inappropriate 
encroachment upon the freedoms of speech and association, and I 
couldn't agree more.
    This issue transcends politics. It doesn't matter if it is 
a President Trump rally or a Bernie Sanders rally, the idea of 
American citizens being tracked and catalogued for merely 
showing their faces in public is deeply troubling. It is 
imperative that Congress understands the effects of this 
technology on our constitutional liberties.
    The invasiveness of facial recognition technology has 
already led a number of localities to ban its government 
agencies from buying or using digital facial recognition for 
any purpose. This trend threatens to create a patchwork of laws 
that will result in uncertainty and may impede legitimate uses 
of the technology. Unfortunately, this is not an issue we 
should leave to the courts. Facial recognition presents novel 
questions that are best answered by congressional policymaking, 
which can establish a national consensus.
    The unique Government-wide focus of this committee allows 
us to consider legislation to address facial recognition 
technology here at the Federal level. We know that a number of 
Federal Government agencies possess facial recognition 
technology and use it without guidance from Congress, despite 
its serious implications on our First and Fourth Amendment 
rights. At the bare minimum, we must understand how and when 
Federal agencies are using this technology and for what 
purpose. Currently, we do not know even this basic information.
    Because our committee has jurisdiction over the entire 
Federal Government's use of emerging technology, we must start 
by pursuing policy solutions to address this fundamental 
information. It is our intention as well to introduce 
legislation. We are trying to work with both sides here, trying 
to work together. That will provide transparency and 
accountability with respect to the Federal Government's 
purchase and use of this technology and this software. I am 
pleased to be working with my colleagues across the aisle on 
the bill that would address these questions.
    And again, I want to thank you, Madam Chairwoman. And I 
look forward to hearing from our witnesses today and thank them 
for being here. I yield back.
    Chairwoman Maloney. Thank you, Mr. Jordan.
    But before we get to the witnesses, I would like to make a 
unanimous consent request. I would like to insert into the 
record a report from the ACLU, which found that Amazon's 
recognition technology misidentified 28 Members of Congress as 
other individuals who had been arrested for crimes, including 
John Lewis, a national legend, a national civil rights leader. 
So, I would like to place that into the record.
    Chairwoman Maloney. And I would also like to mention that 
three members of this committee were misidentified, Mr. Gomez, 
Mr. Clay, and Mr. DeSaulnier. And they were misidentified--that 
shows this technology is not ready for primetime--along with 11 
Republican Members of Congress.
    So, I would now like to recognize my colleague Mr. Gomez, 
who has personal experience with this, for an opening 
statement.
    Mr. Gomez. Thank you, Madam Chair.
    First, this is the committee is holding its third hearing 
on this issue, and up until two years ago, this issue was not 
even on my radar, until the ACLU conducted this test, which 
falsely matched my identity with somebody who committed a 
crime. Then all of a sudden, my ears perked up. But I had no 
doubt that I was misidentified because of the color of my skin 
than anything else.
    So, as I started to learn and do research on this issue, my 
concerns only grew. I found out that it is being used in so 
many different ways. Not only in law enforcement--at the 
Federal level, at the local level--but it is also being used 
when it comes to apartment buildings, when it comes to 
doorbells, when it comes to shoppers, when it comes to a 
variety of things, right? But at the same time, this technology 
is fundamentally flawed.
    For somebody who gets pulled over by the police, in certain 
areas, it is not a big deal. In other areas, it could mean life 
or death if the people think you are a violent felon. So, we 
need to start taking this seriously.
    This issue probably doesn't rank in the top three issues of 
any American out in the United States, but as it continues to 
be used and it continues to have issues, there will be more and 
more people who are misidentified and more and more people who 
are questioning if their liberties and their freedoms are 
starting to be impacted for no fault of their own, just some 
algorithm misidentified them as somebody who committed a crime 
in the past.
    So, this is something that we need to raise the alarm. And 
that is what these hearings are doing in a bipartisan way. To 
make sure that the American public doesn't stumble into the 
dark, and suddenly, our freedoms are a little bit less, our 
liberties are a little bit less. So, we will start having these 
important discussions in a bipartisan way to figure out how and 
what can the Federal Government do. What can Congress do? What 
is our responsibility?
    And with that, I appreciate the chair's commitment to 
legislation. I also appreciate the ranking member's commitment 
to legislation because I know that this issue is a tough one, 
and it only could be done in a bipartisan way.
    With that, I yield back.
    Chairwoman Maloney. I now recognize Mr. Meadows of North 
Carolina for an opening statement.
    Mr. Meadows. Thank you, Madam Chairman and the ranking 
member, both of you. Thank you for your leadership on this 
important issue.
    Two things that I would highlight. Certainly, we know Mr. 
Gomez, and we know that there is certainly no criminal 
background that he could ever be accused of being involved 
with. And so, I want to stress that his character is of the 
utmost as it relates to even us on this side of the aisle.
    And I say that in jest because one of the things that we do 
need to focus on--and this is very important to me, I think 
that this is where conservatives and progressives come 
together--and it is on defending our civil liberties. It is on 
defending our Fourth Amendment rights, and it is that right to 
privacy. I agree with the chairwoman and the ranking member and 
Mr. Gomez and others on the other side of the aisle, where we 
have had really good conversations about addressing this issue.
    To focus only on the false positives I think is a major 
problem for us, though, because I can tell you, technology is 
moving so fast that the false positives will be eliminated 
within months. So, I am here to say that if we only focus on 
the fact that they are not getting it right with facial 
recognition, we have missed the whole argument because 
technology is moving at warp speeds, and what we will find is, 
is not only will they properly--my concern is not that they 
improperly identify Mr. Gomez, my concern is that they will 
properly identify Mr. Gomez and use it in the wrong manner.
    So, for the witnesses that are here today, what I would ask 
all of you to do is, how can we put a safeguard on to make sure 
that this is not a fishing expedition at the cost of our civil 
liberties because that is essentially what we are talking 
about. We are talking about scanning everybody's facial 
features, and even if they got it 100 percent right, how should 
that be used? How should we ultimately allow our Government to 
be involved in that?
    I am extremely concerned that as we look at this issue that 
we have to come together in a bipartisan way to figure this 
out. I think it would be headlines on the, you know, New York 
Times and Washington Post if you saw Members of both parties 
coming to an agreement on how we are to address this issue. I 
am fully committed to do that.
    Madam Chair, I was fully committed to your predecessor. He 
and I both agreed at the very first time where this was brought 
up that we had to do something. And I know the ranking member 
shares that. So, I am fully engaged. Let's make sure that we 
get something and get something done quickly, and if we can do 
that, you know?
    Because I think if we start focusing again on just the 
accuracy, then they are going to make sure that it is accurate, 
but what standards should we have the accuracy there? Should it 
be 100 percent? Should it be 95 percent? You know, I think when 
Mr. Gomez was actually identified, the threshold was brought 
down to 80 percent. Well, you are going to get a lot of false 
positives when that happens, but we need to help set the 
standards and make sure that our Government is not using this 
in an improper fashion.
    With that, I yield back.
    Chairwoman Maloney. I thank the gentleman for his 
statement.
    I would now like to introduce the witnesses. We are 
privileged to have a rich diversity of expert witnesses on our 
panel today. Brenda Leong is a senior counsel and Director of 
AI and Ethics at the Future of Privacy Forum. Dr. Charles 
Romine is the Director at the Information Technology Laboratory 
of the National Institute of Standards and Technology.
    Meredith Whittaker is the co-founder and Co-Director of the 
AI Now Institute at New York University. Daniel Castro is the 
vice president and Director of Center for Data Innovation of 
the Information Technology and Innovation Foundation. And Jake 
Parker is the Senior Director of Government Relations at the 
Security Industry Association.
    If you would all rise and raise your right hand, I will 
begin by swearing you in.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [Response.]
    Chairwoman Maloney. Let the record show that the witnesses 
all answered in the affirmative. Thank you, and please be 
seated.
    The microphones are very, very sensitive, so please speak 
directly into them. And without objection, your written 
testimony will be made part of our record.
    With that, Ms. Leong, you are now recognized for five 
minutes.

 STATEMENT OF BRENDA LEONG, SENIOR COUNSEL AND DIRECTOR OF AI 
              AND ETHICS, FUTURE OF PRIVACY FORUM

    Ms. Leong. Thank you for the opportunity to testify and for 
considering the commercial use of facial recognition 
technology.
    This is an important challenge. The Future of Privacy Forum 
is a nonprofit organization that serves as a catalyst for 
privacy leadership and scholarship, advancing principled data 
practices in support of emerging technologies. We believe that 
the power of information is a net benefit to society and that 
it can be appropriately managed to control the risks to 
individuals and groups.
    Biometric systems, such as those based on facial 
recognition technology, have the potential to enhance consumer 
services and improve security, but must be designed, 
implemented, and maintained with full awareness of the 
challenges they present. Today, my testimony focuses on 
establishing the importance of technical accuracy in discussing 
face image-based systems, considering the benefits and harms to 
individuals and groups, and recommending express consent as the 
default for any commercial use of identification or 
verification systems.
    Understanding the specifics of how a technology works is 
critical for effectively regulating the relevant risks. Not 
every camera-based system is a facial recognition system. A 
facial recognition system creates unique templates stored in an 
enrolled data base. These data bases are used then to verify a 
person in a one-to-one match or identify a person in a one-to-
many search.
    If a match is found, that person is identified with greater 
or lesser certainty depending on the system in use, the 
threshold and settings in place, and the operator's expertise. 
Thus, recognition systems involve matching two images. Without 
additional processing, they do not impute other characteristics 
to the person or image.
    There's been a great deal of confusion on this point in the 
media, particularly in contrast to facial characterization or 
emotion detection software, which attempts to analyze a single 
image and impute characteristics to that image, including 
gender and race. These systems may or may not link data to 
particular individuals, but they carry their own significant 
risks.
    Accuracy requirements and capabilities for recognition and 
characterization systems vary with context. The level of 
certainty acceptable for verifying an individual's identity 
when unlocking a mobile device is below the standard that 
should be required for verifying that an individual is included 
on a terrorist watch list.
    In addition, quality varies widely among suppliers, based 
on liveness detection, the diversity of training datasets, and 
the thoroughness of testing methodologies. The high quality of 
systems at the top of the NIST rankings reflect their ability 
to meet these goals. For example, the most recent NIST report 
highlights accuracy outcomes that were 100 times worse for 
certain groups, but the best systems achieved results across 
demographic groups with variations that were, in NIST's words, 
``undetectable.''
    However, the real harms arising from inaccurate recognition 
and characterization systems cannot be ignored. Individuals 
already use facial recognition to open their phones, access 
bank accounts, and organize their photos. Organizational 
benefits include more secure facility access, enhanced 
hospitality functions, and personalized experiences. New uses 
are being imagined all the time, but the potential harms are 
real. In addition to inaccuracy, concerns about real-time 
surveillance societies have led individuals and policymakers to 
express significant reservations. The decision by some 
municipalities to legislatively ban all use of facial 
recognition systems by government agencies reflects these 
heightened concerns.
    The ethical considerations of where and how to use facial 
recognition systems exceed traditional privacy considerations, 
and the regulatory challenges are complex. Even relatively 
straightforward legal liability questions prove difficult when 
many parties bear some share of responsibility. When 
considering the scope of industries hoping to use this 
technology, from educational and financial institutions to 
retail establishments, the potential impacts on individuals are 
mindboggling.
    As with many technologies, facial recognition applications 
offer benefits and generate risks based on context. Tracking 
online preferences and personalizing consumer experiences are 
features some people value, but others strongly oppose. Tying 
these options closely to the appropriate consent level is 
essential.
    While FPF prefers a comprehensive privacy bill to protect 
all sensitive data, including biometric data, we recognize that 
Congress may choose to consider technology-specific bills. If 
so, our facial recognition privacy principles provide a useful 
model, particularly in requiring the default for commercial 
identification or verification systems to be opt-in--that is, 
express affirmative consent prior to enrollment. Exceptions 
should be few, narrow, and clearly defined, and further 
restrictions should be tiered and based on the scope and 
severity of potential harms.
    Thank you for your attention and your commitment to finding 
a responsible regulatory approach to the use of facial 
recognition technology.
    Chairwoman Maloney. Thank you.
    The chair now recognizes Dr. Romine for five minutes.

   STATEMENT OF CHARLES ROMINE, PH.D., DIRECTOR, INFORMATION 
  TECHNOLOGY LABORATORY, NATIONAL INSTITUTE OF STANDARDS AND 
                           TECHNOLOGY

    Mr. Romine. Chairwoman Maloney, Ranking Member Jordan, and 
members of the committee, I'm Chuck Romine, Director of the 
Information Technology Laboratory at the Department of 
Commerce's National Institute of Standards and Technology, 
known as NIST. Thank you for the opportunity to appear before 
you today to discuss NIST's role in standards and testing for 
facial recognition technology.
    In the area of biometrics, NIST has been working with 
public and private sectors since the 1960's. Biometric 
technologies provide a means to establish or verify the 
identity of humans, based upon one or more physical or 
behavioral characteristics. Face recognition technology 
compares an individual's facial features to available images 
for verification or identification purposes.
    NIST's work improves the accuracy, quality, usability, 
interoperability, and consistency of identity management 
systems and ensures that United States interests are 
represented in the international arena. NIST research has 
provided state-of-the-art technology benchmarks and guidance to 
industry and to U.S. Government agencies that depend upon 
biometrics recognition technologies. NIST's Face Recognition 
Vendor Testing Program, or FRVT, provides technical guidance 
and scientific support for analysis and recommendations for 
utilization of face recognition technologies to various U.S. 
Government and law enforcement agencies, including the FBI, 
DHS, CBP, and IARPA.
    The NIST FRVT Interagency Report 8280, released in December 
2019, quantified the accuracy of face recognition algorithms 
for demographic groups defined by sex, age, and race or country 
of birth for both one-to-one and one-to-many identification 
search algorithms. It found empirical evidence for the 
existence of demographic differentials in face recognition 
algorithms that NIST evaluated. The report distinguishes 
between false-positive and false-negative errors and notes that 
the impact of errors is application dependent.
    NIST conducted tests to quantify demographic differences 
for 189 face recognition algorithms from 99 developers, using 
four collections of photographs, with 18.27 million images of 
8.49 million people. These images came from operational data 
bases provided by the State Department, the Department of 
Homeland Security, and the FBI.
    I'll first address one-to-one verification applications. 
Their false-positive differentials are much larger than those 
related to false negatives and exist across many of the 
algorithms tested. False positives might present a security 
concern to the system owner, as they may allow access to 
impostors. Other findings are that false positives are higher 
in women than in men and are higher in the elderly and the 
young compared to middle-aged adults.
    Regarding race, we measured higher false-positive rates in 
Asian and African American faces relative to those of 
Caucasians. There are also higher false-positive rates in 
Native American, American Indian, Alaskan Indian, and Pacific 
Islanders. These effects apply to most algorithms, including 
those developed in Europe and the United States.
    However, a notable exception was for some algorithms 
developed in Asian countries. There was no such dramatic 
difference in false positives in one-to-one matching between 
Asian and Caucasian faces for algorithms developed in Asia. 
While the NIST study did not explore the relationship between 
cause and effect, one possible connection and an area for 
research is the relationship between an algorithm's performance 
and the data used to train the algorithm itself.
    I'll now comment on one-to-many search algorithms. Again, 
the impact of errors is application dependent. False positives 
in one-to-many searches are particularly important because the 
consequences could include false accusations. For most 
algorithms, the NIST study measured higher false-positive rates 
in women, African Americans, and particularly in African 
American women. However, the study found that some one-to-many 
algorithms gave similar false-positive rates across these 
specific demographics. Some of the most accurate algorithms 
fell into this group.
    This last point underscores one overall message of the 
report. Different algorithms perform differently. Indeed, all 
of our FRVT reports note wide variations in recognition 
accuracy across algorithms, and an important result from the 
demographic study is that demographic effects are smaller with 
more accurate algorithms.
    NIST is proud of the positive impact it has had in the last 
60 years on the evolution of biometrics capabilities. With 
NIST's extensive experience and broad expertise, both in its 
laboratories and in successful collaborations with the private 
sector and other Government agencies, NIST is actively pursuing 
the standards and measurement research necessary to deploy 
interoperable, secure, reliable, and usable identity management 
systems.
    Thank you for the opportunity to testify on NIST's 
activities in face recognition and identity management, and I'd 
be happy to answer any question that you have.
    Chairwoman Maloney. Ms. Whittaker?

STATEMENT OF MEREDITH WHITTAKER, CO-FOUNDER AND CO-DIRECTOR, AI 
               NOW INSTITUTE, NEW YORK UNIVERSITY

    Ms. Whittaker. Chairwoman Maloney, Ranking Member Jordan, 
and members of the committee, thank you for inviting me to 
speak today.
    My name is Meredith Whittaker, and I'm the co-founder of 
the AI Now Institute at New York University. We're the first 
university research institute dedicated to studying the social 
implications of artificial intelligence and algorithmic 
technologies. I also worked at Google for over a decade.
    Facial recognition poses serious dangers to our rights, 
liberties, and values, whether it's used by the state or 
private actors. The technology does not work as advertised. 
Research shows what tech companies won't tell you, that facial 
recognition is often inaccurate, biased, and error-prone. And 
there's no disclaimer to warn us that the populations already 
facing societal discrimination bear the brunt of facial 
recognition's failures.
    As Dr. Romine mentioned, the most recent NIST audit 
confirmed that some systems were 100 times less accurate for 
black and Asian people than for white people. But this isn't 
facial recognition's only problem, and ensuring accuracy will 
not make it safe.
    Facial recognition relies on the mass collection of our 
biometric data. It allows government and private actors to 
persistently track where we go, what we do, and who we 
associate with. Over half of Americans are already in a law 
enforcement facial recognition data base, and businesses are 
increasingly using it to surveil and control workers and the 
public. It's replacing time clocks at job sites, keys for 
housing units, safety systems at schools, security at stadiums, 
and much more.
    We've seen real-life consequences. A facial recognition 
authentication system used by Uber failed to recognize 
transgender drivers, locking them out of their accounts and 
their livelihoods.
    Facial recognition and analysis are also being used to make 
judgments about people's personality, their feelings, and their 
worth based on the appearance of their face. This set of 
capabilities raises urgent concerns, especially since the claim 
that you can automatically detect interior character based on 
facial expression is not supported by scientific consensus and 
recalls discredited pseudoscience of the past.
    Most facial recognition systems in use are developed by 
private companies, who license them to governments and 
businesses. The commercial nature of these systems prevents 
meaningful oversight and accountability, hiding them behind 
legal claims of trade secrecy. This means that researchers, 
lawmakers, and the public struggle to answer critical questions 
about where, how, and with what consequences this technology is 
being used. This is especially troubling since facial 
recognition is usually deployed by those who already have 
power--say, employers, landlords, or the police--to surveil, 
control, and in some cases oppress those who don't.
    In Brooklyn, tenants in the Atlanta Plaza Towers pushed 
back against their landlord's plans to replace key entry with 
facial recognition, raising questions about biometric data 
collection, racial bias, and the very real possibility that 
invasive surveillance could be abused by the landlord to harass 
and evict tenants, many of whom were black and Latinx women and 
children.
    To address the harms of this technology, many have turned 
to standards for assessment and auditing. These are a wonderful 
step in the right direction, but they are not enough to ensure 
that facial recognition is safe. Using narrow or weak standards 
as deployment criteria risks allowing companies to assert that 
their technology is safe and fair without accounting for how it 
will be used or the concerns of the communities who will live 
with it. If such standards are positioned as the sole check on 
these systems, they could function to mask harm instead of 
preventing it.
    From aviation to healthcare, it is difficult to think of an 
industry where we permit companies to treat the public as 
experimental subjects, deploying untested, unverified, and 
faulty technology that has been proven to violate civil rights 
and to amplify bias and discrimination. Facial recognition 
poses an existential threat to democracy and liberty and 
fundamentally shifts the balance of power between those using 
it and the populations on whom it's applied. Congress is 
abdicating its responsibility if it continues to allow this 
technology to go unregulated. And as a first step, lawmakers 
must act rapidly to halt the use of facial recognition in 
sensitive domains by both government and commercial actors.
    If you care about the over-policing of communities of color 
or gender equity or the constitutional right to due process and 
free association, then the secretive, unchecked deployment of 
flawed facial recognition systems is an issue you cannot 
ignore. Facial recognition is not ready for primetime. Congress 
has a window to act, and the time is now.
    Chairwoman Maloney. Thank you.
    The chair now recognizes Daniel Castro for five minutes.

STATEMENT OF DANIEL CASTRO, VICE PRESIDENT AND DIRECTOR, CENTER 
  FOR DATA INNOVATION, INFORMATION TECHNOLOGY AND INNOVATION 
                           FOUNDATION

    Mr. Castro. Thank you. Chairwoman Maloney, Ranking Member 
Jordan, and members of the committee, thank you for the 
invitation to testify today.
    There are many positive uses of facial recognition 
technology emerging in the private sector. Airlines are using 
it to help travelers get through the airports faster, saving 
people time and hassle. Banks are using it to improve security, 
helping reduce financial fraud. Hospitals are using it to 
verify the right patient receives the right treatment, 
preventing medical errors. There is even an app that says it 
uses facial recognition on dogs and cats to help find lost 
pets.
    Americans are increasingly familiar with commercial uses of 
the technology because it's now a standard feature on the 
latest mobile phones. It's also being integrated into household 
products like security cameras and door locks. There is one--
this is one reason why a survey last year found the majority of 
Americans disagreed with strictly limiting the use of facial 
recognition if it would mean airports can't use the technology 
to speed up security lines. And nearly half opposed strict 
limits if it would prevent the technology being used to stop 
shoplifting.
    But over the past year, I've also seen headlines suggesting 
that facial recognition technology is inaccurate, inequitable, 
and invasive. If that was true, I would be worried, too, but it 
isn't. Here are the facts.
    First, there are many different facial recognition systems 
on the market. Some perform much better than others, including 
in their accuracy rates across race, gender, and age. Notably, 
the most accurate algorithms NIST has evaluated show little to 
no bias. These systems continue to get measurably better every 
year, and they can outperform the average human.
    Second, many of the leading companies and industries 
responsible for developing and deploying facial recognition 
have voluntarily adopted robust privacy and transparency 
guidelines. These include voluntary standards for digital signs 
and consensus-based, multi-stakeholder guidelines developed for 
the broader technology community.
    But while the private sector has made significant progress 
on its own, Congress also has an important role. I'd like to 
suggest seven key steps.
    First, Congress should pass comprehensive legislation to 
streamline consumer privacy regulation, preempt state laws, and 
establish basic data rights. While it may be appropriate to 
require opt-in consent for certain sensitive uses, such as in 
healthcare or education, it won't always be feasible. For 
example, you probably can't get sex offenders to agree to 
enroll in it. So, opt-ins should not be required across the 
board.
    Legislation should also be technology neutral, and it 
shouldn't treat facial recognition differently than other types 
of biometrics. In addition, a Federal law should not establish 
a private right of action because that would significantly 
raise costs for businesses, and these costs would eventually be 
passed on to consumers.
    Second, Congress should direct NIST to expand its 
evaluation of commercial facial recognition systems to reflect 
more real-world commercial uses, including cloud-based systems 
and infrared systems. NIST also should continue to report 
performance metrics on race, gender, and age, and NIST should 
develop a diverse facial images dataset for training and 
evaluation purposes.
    Third, Congress should direct GSA to develop performance 
standards for any facial recognition system that the Government 
procures, including for accuracy and error rates. This will 
ensure Federal agencies don't waste tax dollars on ineffective 
systems or systems with significant performance disparities.
    Fourth, Congress should fund deployments of facial 
recognition systems in Government. For example, using it to 
improve security in Federal buildings and expedite entry for 
Government workers.
    Fifth, Congress should continue to support Federal funding 
for research to improve the accuracy of facial recognition 
technology as part of the Government's overall commitment to 
investing in artificial intelligence. One of the key areas of 
fundamental AI research is computer vision, and the U.S. 
Government should continue to invest in this technology, 
especially as China makes gains in this field.
    Sixth, Congress should consider legislation to establish a 
warrant requirement for authorities to track people's 
movements, including when they use geolocation data from facial 
recognition systems.
    Finally, Congress should continue providing due oversight 
of law enforcement. That should include ensuring that any 
police surveillance of political protests is justified and 
conducted with appropriate safeguards, and it should include 
scrutinizing racial disparities in the use of force among 
communities of color.
    Congress also should require the Department of Justice to 
develop best practices for how state and local authorities use 
facial recognition. This guidance should include 
recommendations on how to publicly disclose when law 
enforcement will use the technology, what sources of images 
will be used, and what the data retention policies will be.
    Congress should always consider the impact of new 
technologies and ensure there are proper guardrails in place to 
protect society's best interests. In the case of facial 
recognition technology, there are many unambiguously beneficial 
opportunities to use the technology, such as allowing people 
who are blind or who suffer from face blindness to identify 
others. So, rather than imposing bans or moratoriums, Congress 
should support positive uses of the technology while limiting 
the potential misuse and abuse.
    Thank you again. I look forward to answering any questions.
    Chairwoman Maloney. Thank you.
    Jake Parker is recognized for five minutes.

    STATEMENT OF JAKE PARKER, SENIOR DIRECTOR OF GOVERNMENT 
            RELATIONS, SECURITY INDUSTRY ASSOCIATION

    Mr. Parker. Good morning, Chairwoman Maloney, Ranking 
Member Jordan, and distinguished members of the committee.
    My name is Jake Parker, Director of Government Relations 
for the Security Industry Association. SIA is a trade 
association representing businesses that provide a broad range 
of security products for the Government, commercial, and 
residential users while employing thousands of innovators in 
the United States and around the globe.
    Our members include many of the leading developers of 
facial recognition technology and many others that offer 
products that incorporate or integrate with this technology for 
a wide variety of applications. SIA members are developing 
tools and technologies to enhance security and convenience for 
consumers and enterprise users.
    It is because of the experience our members have in 
building and deploying this technology, we are pleased to be 
here today to talk to you about how it can be used consistent 
with our values. We firmly believe that all technology 
products, including facial recognition, should only be used for 
lawful, ethical, and nondiscriminatory purposes. That way, we 
as a society can have confidence that facial recognition makes 
our country safer and brings value to our everyday lives.
    So, in commercial settings, facial recognition offers 
tremendous benefits. For example, it could be used to allow 
individuals to securely, quickly, and conveniently prove their 
identity in order to enter a venue, board a commercial 
airplane, perform online transactions, or seamlessly access 
personalized experiences. In addition, companies are using the 
technology to improve the physical security of their property 
and their employees against the threat of violence, theft, or 
other harm.
    Additionally, as you know, Government agencies have made 
effective use of facial recognition for over a decade to 
improve homeland security, public safety, and criminal 
investigations. And one important example of the use of this 
technology is to identify and rescue trafficking victims. It's 
been used almost--in almost 40,000 cases in North America, 
identifying 9,000 missing children and over 10,000 traffickers.
    According to news reports, a law enforcement officer in 
California last year saw a social media post about a missing 
child from the National Center for Missing and Exploited 
Children. After law enforcement used facial recognition, the 
victimized child was located and recovered.
    In another notable success story, NYPD detectives last year 
used this technology to identify a man who sparked terror by 
leaving a pair of rice cookers at the Fulton Street Subway. 
Using facial recognition technology, along with human review, 
detectives were able to identify the suspect within an hour. 
The chief of detectives was quoted as saying, ``To not use this 
technology would be negligent.''
    Both public and private sectors have seen that better 
cameras, better devices with more computing power, combined 
with more effective software, can provide security-enhancing 
tools. From unlocking mobile phones to securing critical 
infrastructure, facial recognition technologies abound.
    But in all applications, SIA members see transparency as 
the foundation that governs the use of facial recognition 
technology. It should be clear when and under what 
circumstances the technology is used, as well as the processes 
governing the collection, processing, and storage of related 
data.
    We support sensible safeguards that promote transparency 
and accountability as the most effective way to ensure the 
responsible use of the technology without unreasonably 
restricting tools that have become essential to public safety. 
Additionally, SIA does not support moratoriums or blanket bans 
on the use of this important technology.
    As the committee works on the proposals mentioned earlier 
requiring greater accountability for Federal Government use, we 
encourage private sector developers to be brought into the 
conversation to present our real-world views on how the 
technology works and should be best managed. We hope you also 
remember the important role the Government plays in supporting 
biometric technology improvements. At a minimum, Congress 
should provide NIST with the resources it needs to support the 
expansion of these efforts.
    As we think about regulation, we believe that any effort 
specific to commercial use makes sense in the context of the 
National Data Privacy Policy. Many legislative efforts in this 
area include biometric information, and was said earlier, we 
think this needs to be tech neutral. This is the right approach 
to include.
    In the meantime, we encourage our members to play an active 
role in providing end-users with the tools they need to use 
this technology responsibly. In order to make this come to 
fruition, SIA is developing a set of use principles on the 
technology.
    As this hearing comes on the heels of a recent NIST study, 
which generated a lot of news and a fair amount of controversy, 
it's important to note that biometric technology companies have 
been working closely with NIST for decades, handing over their 
technology and allowing the Government to rigorously test it 
and publicly post the results. And it's improving every year to 
the point where the accuracy is reaching that of automated 
fingerprint comparison, which is viewed as the gold standard 
for identification.
    The most important, significant takeaway from the NIST 
report is that it confirms facial recognition technology 
performs far better across racial groups than had been widely 
reported before. According to NIST data, only four out of 116 
verification algorithms tested using the mug shot data base had 
false match rates more than 1 percent for any demographic. 
While that's tremendous progress for users of biometrics, we 
are committed to continuing to provide technology so that all 
users can be comfortable with it in the transparency and 
privacy policy surrounding its deployment to improve the 
technology.
    On behalf of SIA, thanks for the opportunity to appear 
before you today, and we look forward to working with you.
    Chairwoman Maloney. Thank you.
    Dr. Romine, I would like to ask you about the study that 
you released last month and that you mentioned in your 
testimony. And I would like to ask unanimous consent to place 
that study in the record, without objection.
    Chairwoman Maloney. We all know that commercial facial 
recognition technology continues to expand in both the public 
and private sectors, but your new study found that facial 
recognition software misidentified persons of color, women, 
children, and elderly individuals at a much higher rate. And in 
your study, you evaluated 189 algorithms from 99 developers. 
Your analysis found that false positives were more likely to 
occur with people of color, and is that correct?
    Mr. Romine. It is correct for the largest collection of the 
algorithms. That's correct.
    Chairwoman Maloney. And your report also found that women, 
elderly individuals, and children were more likely to be 
misidentified by the algorithms. Is that correct?
    Mr. Romine. That is correct for most algorithms.
    Chairwoman Maloney. Now in women's health, they used to do 
all the studies on men. When you were doing these studies, were 
you doing them on men's faces as a pattern, or were you using 
women's faces?
    Mr. Romine. No, we had a substantial set of images that we 
could pull from, and so we were able to represent a broad 
cross-section of demographics.
    Chairwoman Maloney. OK. Did these disparities and false 
positives occur broadly across the algorithms that you tested?
    Mr. Romine. They did occur broadly for most of the 
algorithms that we tested.
    Chairwoman Maloney. And your study states, and I quote, 
``Across demographics, false-positive rates often vary by 
factors or 10 to beyond 100 times.'' These are staggering 
numbers, wouldn't you say? How much higher was the error rate 
when the algorithms were used to identify persons of color as 
compared to white individuals?
    Mr. Romine. So, as we state in the report, the error rates 
for some of the algorithms can be significantly higher, from 10 
to 100 times the error rates of identification for Caucasian 
faces for a subset of the algorithms.
    Chairwoman Maloney. And what was the difference in the 
misidentification rate for women?
    Mr. Romine. Similar rates of----
    Chairwoman Maloney. Ten to 100?
    Mr. Romine. Ten to 100. I'll have to get back to you on the 
exact number, but it's certainly a substantial difference on 
some algorithms.
    Chairwoman Maloney. What about black women? Is that higher?
    Mr. Romine. Black women have a higher rate of--on some 
algorithms, on the same algorithms that we're discussing, than 
either black faces broadly speaking or women broadly speaking. 
Black women were even--had differentials that were even higher 
than either of those two other demographics.
    Chairwoman Maloney. So, what were they?
    Mr. Romine. Substantially higher. On the order of 10 to 
100.
    Chairwoman Maloney. OK. And misidentification, as we all 
know, can have very serious consequences for people when they 
are falsely identified. It can prevent them from boarding a 
plane or entering the country. It can lead to someone being 
falsely accused or detained or even jailed.
    So, I am deeply concerned that facial recognition 
technologies have demonstrated racial, gender, and age bias. 
Facial recognition technology has benefits to be sure, but we 
should not rush to deploy it until we understand the potential 
risks and mitigate them. Your study provides us with valuable 
insight into the current limitations of this technology, and I 
appreciate the work that you have done and all of your 
colleagues on the panel today that have increased our 
understanding.
    I would now recognize the ranking member. No? I am going to 
recognize the gentlelady from North Carolina, Ms. Foxx. She is 
now recognized for questions.
    Ms. Foxx. Thank you, Madam Chairman.
    Mr. Parker, how competitive is the facial recognition 
technology market?
    Mr. Parker. It's extremely competitive because of the 
advances in technology over the last couple years. Particularly 
the dramatic increase in accuracy in the last three to five 
years combined with advances in imaging technology have really 
made the products more affordable, and therefore, there's been 
more interest from consumers and then more entry to the market 
from competitors.
    Ms. Foxx. To what extent do the companies compete on 
accuracy, and how could a consumer know more about the accuracy 
rates of the facial recognition?
    Mr. Parker. OK. So, they do compete on accuracy, and you 
know, the NIST program plays a really helpful role here in 
providing a useful benchmark in measurement of accuracy. And so 
the companies are competing to get the best scores on those 
tests. Companies also do their own private testing and make 
those results available to their customers.
    And there is an important distinction, though, as well 
because in the NIST testing, you have static data sensors, 
specific photo sets they are using that are already there, 
whereas those aren't necessarily the same type of images that 
you'd be seeing in a deployed system. And so other types of 
tests need to be done of a fully deployed system to really 
determine what its accuracy is.
    Ms. Foxx. What private sector best practices exist for 
securing facial images and the associated data, such as face 
print templates and match results, in these facial recognition 
technology systems?
    Mr. Parker. So, as I mentioned earlier, SIA is developing a 
set of best use practices, but that's based on the fact that 
many of our members have produced best practices they work with 
their customers on to implement that would accomplish privacy 
goals. I have a couple of examples, but one of the most 
significant things to mention here is that many of these 
products already have built into them the ability to comply 
with data privacy laws in Europe, so the GDPR laws in Europe. 
And so this has to do with encrypting photos, encrypting any 
kind of personal information that's associated with it, 
securing channels of communication between the server and the 
device, as well as procedures for looking up someone's 
information, being able to delete that if requested, and being 
able to tell someone what information is in the system.
    Ms. Foxx. Could you summarize succinctly some of the best 
practices that exist for protecting that personally 
identifiable information that is incorporated into it? Is it 
too complicated a system to explain here? Is there something we 
could have to read or----
    Mr. Parker. Sure. I'd be happy to provide some more details 
later, but certainly one of the most important things is 
encryption of the data. So, that prevents its usefulness if it 
there is a data breach. Also, it's important to point out that 
the--we talked about the face template is what the system uses 
to make a comparison between two photos. So, by itself, that's 
basically like the digital version of your fingerprint is 
turned into a number in the fingerprint system. By itself, if 
that data is compromised, it's not useful to anyone because the 
proprietary software is the only thing that can read it.
    Ms. Foxx. I have been reading a lot about the difference 
between Europe and us in developing these kinds of techniques 
recently. A number of state and international policies are 
impacting how information is collected. For example, Illinois, 
Washington, Europe's GDPR directly address privacy information. 
How have commercial entities conformed to these new legal 
structures?
    Mr. Parker. So, what we're seeing is that we're adapting 
here and that we're already building in these features to 
products in anticipation, first of all, because it's just good 
practices, right, many of the things the GDPR requires. But 
also, we anticipate there to be a similar framework here at 
this country at some point, and so being proactive in building 
some of those things in.
    Ms. Foxx. Thank you, Madam Chairman. I yield back.
    Chairwoman Maloney. We now recognize the gentlewoman from 
the District of Columbia. Ms. Norton is now recognized for 
questions.
    Ms. Norton. Thank you, Madam Chair.
    This is an important hearing, but I must say I think we are 
playing catch-up. And the way to demonstrate that, I think, 
most readily is what the cell phone companies are already doing 
with this technology. Private industry appears to be way ahead 
of where the Congress or the Federal Government is, and the 
interesting thing is they are responding to consumers.
    And it appears that consumers may already be embracing 
facial recognition in their own devices because the latest--as 
they compete with one another, almost all of them have 
incorporated facial recognition already in their latest mobile 
products. And of course, if one does it, the other is going to 
do it. And Apple and Samsung and all the rest of them already 
do it.
    You can unlock your cell phone by scanning your face. Now 
the public thinks this is, and I suppose they are right, this 
is a real convenience instead of having to log in those 
numbers. And they have grown accustomed, frankly, to cameras. I 
remember when cameras were first introduced in the streets, and 
people said, oh, that is terrible. Then, of course, there is no 
right to privacy once you go in the streets. But talking about 
my cell phone, there is a lot of private information in there.
    And according to recent reports, this technology is not 
foolproof. That is my concern. That, for example, a simple 
photograph can fool it in some instances or unauthorized 
individuals could get into your cell phone, and any sensitive 
information that you happen to have in there, and a lot of 
people store things like, of course, their email is there, but 
banking and the rest of it.
    Ms. Leong, do you see problems that are already there of 
companies now integrating facial technology onto consumer 
devices like this, and are we too far behind to do anything 
about it? Because it looks like the public sees convenience, 
and I don't hear anybody protesting it. Would you comment?
    Ms. Leong. Thank you very much.
    I think that's an excellent question, since we do see the 
use cases advancing quickly in many applications, as you say, 
with phones being one of the most personalized ones that people 
have. I think they make a good example, too, of some of the 
variations that are in place in the market of the different 
ways that facial recognition technology is being used.
    For example, in your phone, I'm going to use Apple as the 
example, and this is my best understanding. I obviously don't 
work for or speak for Apple. Takes a representative picture of 
your face, using both infrared technology and 3-D imaging in 
order to prevent things like using a photo or using another 
person. And it takes at a level of detail that stands up to 
about a 1 in 10 million error rate, which is a pretty 
substantive level for something that is, in fact, part of a 
two-factor process. You have to have the phone, and then you 
have to know whose phone it is and have their face, and then 
you have to match whatever that standard is. So, that's 
actually a pretty robust standard for the level of risk 
involved in what might be--you know, have a lot of personal 
data but is one level of concern for people being violated.
    A facial recognition system that identifies somebody off of 
a video feed as a suspect in a crime would be an entirely 
different level of risk, entirely different level of 
implication on that person, and certainly should be considered 
and potentially regulated in a very different way than that. 
So, yes, I do think we see those things being used in different 
ways already. Some of those have already started to have some 
blowback on them in things like the criminal justice system, 
and that, I think, is what has really gotten people's attention 
and said where are the places that we need to draw those lines 
and say it shouldn't be used here in these cases maybe at all, 
or if it is, it should be used in very limited and regulated 
ways.
    Ms. Norton. Ms. Whittaker, can I ask you about the average 
consumer? Does the average consumer have any way to confirm--
should they have any way to confirm that these cell phone 
manufacturers are, in fact, storing their biometric or other 
data on their servers? What should we do about that? Consumer 
knowledge?
    Ms. Whittaker. Yes, the average consumer does not, and 
indeed, many researchers, many lawmakers don't because this 
technology, as I wrote about in my written testimony, is hidden 
behind trade secrecy. This is a corporate technology that is 
not open for scrutiny and auditing by external experts.
    I think it's notable that while NIST reviewed 189 
algorithms for their latest report, Amazon refused to submit 
their recognition algorithm to NIST. Now they claimed they 
couldn't modify it to meet NIST's standards, but they are a 
multibillion-dollar company and have managed some other pretty 
incredible feats. So, whatever the reason is, what we see here 
is that it's at the facial recognition company's discretion 
what they do or don't release. That they release accuracy 
numbers oftentimes that aren't validated or that it's not 
possible to validate by the general public. So, we're left in a 
position where we have to trust these companies, but we don't 
have many options to say no or to scrutinize the claims they 
make.
    Ms. Norton. Thank you, Madam Chair.
    Chairwoman Maloney. Thank you.
    The gentleman from Louisiana, Mr. Higgins, is now 
recognized for questions.
    Mr. Higgins. Thank you, Madam Chair.
    I would like to ask unanimous consent that the statement of 
Chief James Craig, the Detroit Police Department, his written 
testimony be entered into the record. The chief has had a 
tremendous amount of success using facial recognition 
technology.
    Chairwoman Maloney. Without objection.
    Mr. Higgins. Thank you.
    And I would also like to recognize and thank our esteemed 
colleague Representative Gomez for his opening statement. 
Standing upon principles of freedoms and liberties, protecting 
freedoms and liberties, and resisting and curtailing the 
manifestation of Big Brother, reducing and controlling the size 
and scope of Federal powers. And I want you to know, good sir, 
the Republican Party welcomes your transition.
    [Laughter.]
    Mr. Higgins. Madam Speaker, facial recognition technology 
is an emerging technology, and of course, it is produced by 
private entities. Law enforcement doesn't produce its own 
technologies. It is coming, and it is here. It will get better 
as the weeks and months move forward. It should be no surprise 
to us that the effective percentages of identification using a 
new technology will increase as time moves forward.
    And there is more coming. There is total person recognition 
technology coming that measures the specific physical features 
of individuals, their gait, length of their arms, et cetera. 
This technology is coming. Now what we should seek is a means 
by which to make sure that Big Brother is not coming.
    I have a background in law enforcement, and recognition 
technology has become manifest in many ways. You have license 
plate readers being used from sea to shining sea. These are 
readers in police units that drive around and read license 
plates. If we are looking for a suspect vehicle and, you know, 
we have an eye out for a particular vehicle, a particular 
color, that is human recognition. We see that vehicle. We read 
the license plate. We have license plate readers reading every 
plate we pass.
    If it is expired or the associated driver's license to that 
registered vehicle is a person that is wanted, then we will 
keep an eye on that vehicle. And if the guy that walks out the 
building and gets in that vehicle appears to be the suspect 
that we have identified or we have a warrant for, then there is 
going to be some interaction there. This is a technology that 
has evolved and become manifest over the last 15 or 20 years. 
It has gotten very effective.
    Prior to facial recognition technology, it was completely 
common that we used digital record from crime scene, images 
frozen, the best picture we could get from a crime scene video, 
from surveillance cameras at the business, or whatever was 
available to us. We would pass these images on, have the shifts 
watch these images. And someone at shift, the odds are pretty 
good somebody would recognize that guy. But this is the 
beginning. Recognition is the beginning of an investigation. It 
helps law enforcement cultivate a person of interest for us to 
speak to.
    There can never be a time where--there are just two things 
we stand against, and this is where the ranking member and I 
have had discussions at length. Both of us stand against live 
streaming the images of free Americans as they travel and enter 
businesses or go to-and-fro across America through some data 
base where, all of a sudden, the police show up to interview 
that guy. But solving a crime, we are already using digital 
images to the best of our ability to solve crimes, and every 
American should recognize that this is an important tool.
    The chief's written statement, which I have asked to be 
submitted and the chairwoman has graciously accepted, has 
several examples of incredible success using this technology. 
Now I am going to have a question I will submit in writing, if 
I may, Madam Chair, for Mr. Parker and Mr. Romine and Ms. 
Whittaker. I have three specific questions, which time will not 
allow.
    This is an important topic. We have had several hearings 
about it. I thank the majority party's focus on this, and I 
hope that we can come together with effective legislation that 
both allows the technology to move forward as a law enforcement 
tool and protects the freedoms and privacy of the American 
citizens we serve.
    I yield.
    Chairwoman Maloney. Thank you.
    I now recognize the gentleman from Massachusetts. Mr. Lynch 
is now recognized for questions.
    Mr. Lynch. Thank you very much, Madam Chair. And I want to 
thank you and the ranking member for collaborating on this 
hearing and approaching it in the right way, I think.
    First of all, I want to thank the witnesses for your 
testimony. I think it is very helpful. As I understand it, and 
I am not sure--I am a little skeptical--they tell me that the 
facial recognition that you use on your phone with the iPhone 
that at least the way iPhone says they handle this is that the 
indicia of identity stays on the phone and doesn't go up to a 
server at this point. But, you know, I sort of question whether 
they will have that ability to do that in the future.
    I think there is probably a greater danger that they will 
get facial recognition right. You know, it is not the misses 
that I am concerned about right now, although that has to stop. 
It is what happens when they have all this data out there, 
whether it is law enforcement or private firms.
    We had a massive data breach by Suprema, which is a big 
biometrics collector, 100 million people, I think. No, I am 
sorry, 27 million people in that breach. And then Customs and 
Border Patrol, 100,000 people that they identified, along with 
license plates, that was breached. So, the concern is once this 
information is collected, it is not secure. And that is a major 
problem for all of us.
    I want to ask some specific questions about TikTok. So, 
TikTok is a Chinese company--well, it was purchased by a 
Chinese company. It is a musical video app that the kids love, 
I think. They tell me that in the last 90 days a billion people 
have downloaded it in the U.S. and in Europe, and it is owned 
by the Chinese government.
    And--I am sorry. It is located in Beijing, and under 
Chinese law, the recent national security law in China, they 
have to cooperate, they have to cooperate with the Chinese 
government. And we already see it happening. If you look on 
TikTok, you don't see much about the protests in Hong Kong. 
They are already exercising censorship on TikTok.
    So, TikTok would have to cooperate with China. So, that is 
a national security concern for us. CFIUS is looking at it. It 
is under review.
    The other situation is Apple phone, the iPhone and our 
efforts, because of the Pensacola shootings, we are trying to 
get Apple to open up the iPhone so we can get that information. 
If you step back, it is sort of what we are worried about China 
doing, what we are doing with Apple. We are trying to get 
access to that data, just like China can get all that data from 
TikTok.
    How do we resolve that dilemma? Is there a way, Dr. Romine, 
that we can protect our citizens and others who share that data 
or have their identity captured, you know, their facial 
recognition captured? How do we resolve that so that we use it 
to the benefit of society?
    Mr. Romine. Thank you for the question.
    I think the bottom line really is balancing the 
understanding of the risks associated with policy decisions 
that are made. Those policy decisions are outside of NIST's 
purview, but with regard to the debate on, you know, access to 
Apple and encryption, we know that in the Government and 
broadly speaking, there are two----
    Mr. Lynch. OK. If it is not in your discipline, let me ask 
Ms. Whittaker. Same question.
    Ms. Whittaker. Thank you for the question.
    I think that the short answer there is that we don't have 
the answer to that question. We have not done the research that 
is needed to affirmatively answer that, yes, we can protect 
people's privacy, their liberty when these technologies are 
deployed at wide scale in a complex geopolitical context. I 
think we need more of that research, and we need clear 
regulations that ensure that these are safe.
    Mr. Lynch. All right. Mr. Castro, anything to add?
    Mr. Castro. Yes, I'd just say, I mean, I think we need to 
unabashedly support encryption. I think when, you know, you 
have end-to-end encryption, consumers have control over the 
data, and then the third parties don't. If we back that, that's 
the way you give consumers control of the information. That's 
how you keep out the hand of government on either side.
    Mr. Lynch. All right. I have exhausted my time. Madam 
Chair, thank you for your courtesy. I yield back.
    Chairwoman Maloney. Thank you so much.
    The gentleman from Texas, Mr. Cloud, is now recognized for 
questions.
    Mr. Cloud. Hello. Thank you all again for being here and 
your work on this topic. This is an extremely important topic 
that, obviously, we are going through the birth pains of 
development on this new technology.
    Mr. Parker, the Government use of facial recognition 
technology, are they using technologies that are primarily 
developed by the Government or commercial entities?
    Mr. Parker. I believe that's a mixture of both. So, in some 
cases, especially with Federal agencies, they have developed 
their own systems over time, but I think increasingly it's 
moving to commercial solutions, I believe.
    Mr. Cloud. Commercial solutions. And Dr. Romine--maybe, Mr. 
Castro, you can help with this--what has been the industry 
response to the NIST report?
    Mr. Romine. From our perspective, industry has been 
involved from the outset. They've been very supportive of the 
efforts that we've undertaken in FRVT over the last 20 years. 
So, it's been a--it's generally a very positive thing. Industry 
feels challenged to do better.
    Mr. Parker. I can just add I think it depends on the 
industry. You know, those that are participating really value 
it, but as I noted, I mean, it's excluding a lot of the 
technologies that we're using today. So, it excludes, for 
example, Amazon because Amazon is a cloud-based system. It 
excludes Apple's because Apple's is an infrared system. We need 
to include those as well.
    Mr. Cloud. OK. And Mr. Castro and Mr. Parker, you both 
mentioned that it has been improving dramatically year by year, 
I guess. Would you say that we are weeks, months, years, 
decades away from getting this technology to an acceptable----
    Mr. Castro. I think if you look at the best-performing 
algorithms right now, they are at that level of acceptance that 
we would want. There are, you know, error rates of 0.01 
percent. I mean, that's incredibly small. And so when we're 
talking about even the magnitude of difference between error 
rates, if you have something that's 10 times worse, that's 
still 0.1 percent error rate. And it's 0.1 percent error rate. 
So, that's, you know, 1 out of 10,000; 1 out of 1,000. These 
are very small numbers.
    Mr. Cloud. All right. Mr. Parker?
    Mr. Parker. Yes, so we're reaching, right--as Mr. Castro 
said, we're reaching that point now. I think, you know, so 
there are some reasons why the industry is really focused on 
the false-negative type error rates and reducing that over 
time. And I think what--and that's down to extremely low levels 
now. And this is documented that it's 20 times better now than 
it was five years ago.
    But I think given the results of the demographic effect 
study, we are looking at now some of the false-positive rates 
in trying to make those more uniform. So, you know, the way 
that, you know, achieving homogenous rates, the way NIST 
defined that is those that are mostly the same across different 
demographic groups.
    And so, I think, there is important context to consider 
these in. One is, that has been mentioned already, the total 
relative scale. I mean 100 times 0.01 is 1 percent. But also, 
it's the context of what the consequences of errors could be, 
and in some cases, it matters more than others.
    So, like with law enforcement investigations, NIST actually 
says in its report, the false-positive differentials from the 
algorithm are immaterial. And the reason why that is, is 
because the way law enforcement uses the technology, they're 
looking at a set number of potential candidates that meet a 
criteria, usually like 50.
    In the case of a New York City incident I mentioned before, 
they actually looked through hundreds of photos that were 
potential matches. So, there is that human element there. The 
technology functions as a tool to enhance their job. It's still 
up to a human to decide whether there is an actual match. So, 
in that case, the false-negative error effect is much more 
important because you want to make sure that you're not missing 
someone that's actually in your dataset.
    Mr. Cloud. Yes. Could you speak potentially to the--how do 
we get this right from our perspective of where we sit? Because 
sometimes, you know, in advancements in technology or anything 
else, sometimes we step in as the Federal Government to fix a 
problem and actually end up creating an environment that 
prohibits the technological advancements or the natural market 
things that work to make us get to that solution. Sometimes we 
actually make us take a step back. So, what is the right 
approach here?
    Mr. Parker. So, I think, and this relates to what Mr.--
Congressman Higgins said earlier, facial recognition is just 
one of many advanced technologies. It's important that, you 
know, I think the issues that we have in talking about this are 
not really--don't really have to do with the technology, they 
have to do with how it's used.
    So, I think we need to focus on addressing the concerns we 
have through narrowly tailored restrictions, if warranted. And 
I think that's the more sensible approach, and I think we've 
actually seen a proposal in the Senate that would do something 
like that.
    Mr. Cloud. Thank you. I yield back.
    Chairwoman Maloney. I now recognize the gentlewoman from 
Illinois, Ms. Kelly, for questions.
    Ms. Kelly. Thank you, Madam Chair and Ranking Member, for 
holding this hearing and continuing to make this an important 
issue for our committee.
    We have talked previously about bias in facial recognition 
and artificial intelligence generally, but the recent NIST Face 
Recognition Vendor Test Part 3 on Demographic Effects provides 
useful data on the development of commercial facial recognition 
programs. As chair of the Tech Accountability Caucus, I have 
raised concerns about biased and unfair algorithms and the 
dangers of allowing these biases to perpetuate. The results of 
the Part 3 report were not particularly surprising, as has been 
discussed, with women and individuals of African and Asian 
descent having higher false-positive rates than middle-aged 
Caucasian men.
    Director Romine, in your testimony, I was hoping you could 
clarify the statement that policymakers and the public should 
not think of facial recognition as either always accurate or 
always error-prone. In my opinion, as policymakers, we should 
be pushing to have these technologies get as close to always 
accurate as possible. Why should we not strive to think of this 
technology as always accurate, and how long will we have to 
wait for this technology to reach close to always accurate for 
all demographic groups?
    Mr. Romine. Thank you for the question.
    I don't know how long it will be. I can't predict the 
future. The statement refers to the fact that the 
characteristics you have to include in any discussion are you 
have to know the algorithm that you are using. And as my 
testimony stated, while many of the algorithms that we tested 
exhibit substantial bias or substantial demographic effects 
across three different demographics, the most accurate ones do 
not in the one-to-many categories. So, you have to know the 
algorithm that you're using.
    You also have to know the context. So, the ability to 
automatically identify Aunt Muriel in a family photo doesn't 
have a very high risk if you get that wrong. And so I think 
compare that to, you know, the identification of a suspect, 
where there are some very serious concerns about ensuring that 
you get that right. So, those--you have to know the context in 
which you're using the algorithm. You have to know the 
algorithm that you're using. And then you have to know the 
overall system.
    We test mathematical algorithms at NIST. We don't have the 
capacity and we don't test systems that are deployed in the 
field. And those have implications as well.
    Ms. Kelly. While I have you, can you discuss the benefits 
of auditing facial recognition systems for bias?
    Mr. Romine. From our perspective, whether it's policymakers 
or Government entities or private sector entities that want to 
use face recognition, the most important thing to do is to 
understand--to have the accurate data--accurate, unbiased data 
that we can provide, so that appropriate decisions are made 
with regard to whether to regulate or not, what kinds of 
regulations might be needed, in what context. If you are in a 
procurement situation, procuring a system, you want to know the 
performance of that system and the algorithms that it depends 
on.
    So, those are the things that we think are appropriate. 
From an auditing capability or an auditing perspective, we 
don't view the testing that we do as an audit, so much as 
providing policymakers and Government and the private sector 
with actionable information.
    Ms. Kelly. Ms. Whittaker, I know you talked a little bit 
about auditing. I would like you to answer, as well as Ms. 
Leong.
    Ms. Whittaker. Absolutely. I think auditing is absolutely 
important, but we need to understand how we're measuring these 
systems. In my written testimony, I gave an example of one of 
the most famous facial recognition measurement systems. It was 
a dataset that we measure these systems against, and it's 
called Labeled Faces in the Wild. And in short, it features 
photos of mainly men and mainly white people. So, the way that 
the industry assessed accuracy was to be able to recognize 
white men, and that gives us a sense of why we're seeing these 
pervasive racial and demographic biases across these systems.
    So, the standards we choose to measure ourselves by matter 
greatly. And if those standards don't ask questions about what 
the data that will be used in these systems in a deployment 
environment will be, how these systems will be used. If they 
don't ask questions like what the Atlanta Plaza tenants were 
concerned about, will they be abused? Will they be used to----
    Ms. Kelly. I just want to give Ms. Leong a chance before my 
time runs out.
    Ms. Whittaker. OK.
    Ms. Leong. I agree absolutely that the auditing function is 
critical, and as Ms. Whittaker said, the standards being used 
both during development and testing and by the companies 
afterwards matter. One of the regulatory options is to have 
requirements that say Government use or purchase of systems 
have to be NIST evaluated or have to be, have been ranked by 
some external objective tester that has clear transparency into 
what the standards were and how it was measured and what was 
done.
    Ms. Kelly. Thank you. I yield back.
    Chairwoman Maloney. From the great state of Georgia, Mr. 
Hice is now recognized for questions.
    Mr. Hice. Thank you, Madam Chair.
    There is no question this technology of facial recognition 
is extremely important and viable for our Government, I think, 
most notably, places like border patrol and law enforcement. At 
the same time, there is also no question that this technology 
allows for any individual to be identified in public spaces, be 
it through private sector or Government entities, and therein 
lies a potential problem and grave concern for many people. 
Both, whether we are dealing in private sector or Government, 
should bear the responsibility of individual privacy and data 
security.
    And so, I am not sure exactly where this question is best 
directed, be it Mr. Parker, Mr. Castro, Ms. Leong. I am not 
sure, so any of you jump in here. Are there--let's start with 
the private sector companies that are using facial recognition 
technology that are addressing this issue of civil liberty or 
the whole question of privacy. In other words, are there any 
within the private sector who are setting forth best practices, 
any of the stakeholders?
    Mr. Castro. I can start with that. Yes, we have identified 
a number of companies that have put out principles around 
privacy. Specifically, I can name some--Bank One, Microsoft, 
Amazon, Google. They all have public statements where they 
identify what specifically they are doing around facial 
recognition, how they want to protect privacy, how they're 
doing in terms of development of the technology, what they're 
doing with developer agreements. So, if anyone is using their 
technology, what they have to agree to, to use their 
technology.
    Mr. Hice. Like what are some of those principles? What are 
the guidelines?
    Mr. Castro. So, it has things around transparency, consent, 
data protection, notification. They go through a whole set of 
issues. And these match the type of consensus-based guidelines 
that we've seen come out of other forums as well.
    Mr. Hice. All right. So, we have a big concern, you just 
brought it up, that people are being identified without their 
consent. So, how--what are the safeguards? I mean, it is one 
thing to have policies, to have things written down. It is 
another thing to implement these things to protect the public, 
protect individuals who are not--have not consented to this 
type of technology. So, how will these facial recognition 
products, as they develop, inform individuals that they are 
being exposed, potentially without their knowledge?
    Mr. Castro. So, a number of the recommendations are around 
how you actually communicate with individuals, under what 
circumstances. And part of the source of confusion, I think, in 
some areas is that there's many different types of systems that 
are out there. So, some are just doing facial analysis. For 
example, in the digital signage industry, if you walk by an 
advertising sign----
    Mr. Hice. Without consent?
    Mr. Castro. Without consent. What they're doing is they're 
just tracking the general demographics of who has seen the ad. 
They're not tracking anyone's identity.
    And so they've said for that type of purpose, they're not 
going to be doing--they're not going to be obtaining consent. 
But they have said if they're going to be targeting people ads, 
so for example, if they're targeting you based on your 
identity, they will require consent. So, you have to have 
signed up, for example, for the----
    Mr. Hice. All right. So, let's go to the Atlanta airport, 
which right now is a pilot airport for some facial recognition 
technology. All right. You have the busiest airport in the 
world. You have thousands of people walking around all over the 
place. When this technology is implemented, there is no way to 
get consent from everyone walking around.
    Mr. Castro. So, for the Atlanta airport specifically, they 
have the ability to opt out. So, you don't have to go through 
that if you are going through the terminal, the international 
terminal.
    Mr. Hice. All right. So, how does a person opt out?
    Mr. Castro. You simply say that you don't want to use the 
self-serve kiosk, and you can go to an agent and show them your 
passport.
    Mr. Hice. So, you are saying that technology in airports 
would be used just in security lines?
    Mr. Castro. No, it's used for boarding and for screening 
and for bag check. It's used for a variety of purposes. In each 
of those areas, Delta has said that they have an ability to opt 
out, and they allow consumers to do that.
    Mr. Hice. OK. Do you know of any case where the Government 
in particular, using this type of technology without the 
knowledge, without the consent of an individual, where it 
actually violated the Fourth Amendment?
    Mr. Castro. I don't know that. I don't think we have good 
documentation of that. I do think that's why we need a search 
warrant requirement, so we know whenever those requests are 
made.
    Mr. Hice. Yes, I would agree. And therein lies the great 
potential problem with all this. I mean, we see the value of 
the technology, but somehow we have got to land the plane on a 
safe zone that does not violate people's rights. And I 
appreciate you being here.
    Thank you, Madam Chair.
    Chairwoman Maloney. Thank you.
    The gentlelady from Michigan, Mrs. Lawrence, is now 
recognized for questions.
    Mrs. Lawrence. Thank you so much, Madam Chair.
    This year, I introduced H.R. 153 with my colleague 
Representative Khanna, regarding the need for the development 
of guidelines for the ethical development of AI. Transparency 
of AI systems, processes, and what implications are a result of 
it in helping to empower women and underrepresented or 
marginalized populations. Right now, we have the wild, wild 
west when it comes to AI. Artificial intelligence isn't the 
only emerging technology that requires the development of 
ethical guidelines. The same discussion must be carried over to 
the use of facial recognition.
    There was a member who introduced a statement from the 
Detroit Police Department. So, I represent a majority minority 
district, and the city of Detroit is one of my cities. And 
approximately 67 percent of my constituents are minorities, 
meaning the vast majority of my constituents have a higher 
likelihood of being misidentified by a system that was intended 
to increase security and reduce crime.
    Last month, NIST released a study, the Facial Recognition 
Vendor Test Part 3, which evaluated facial recognition 
algorithms provided by the industry to develop the accuracy of 
demographic groups. The report yielded there are higher rates 
of inaccuracies for minorities to Caucasians. Ms. Whittaker, 
you stated that if we develop--when algorithms are developed 
and you do use a biased process, it is going to give you a 
biased result. And one of the things with the--and we asked the 
question initially, what can we do?
    First of all, there should not be any American citizen who 
is under surveillance, where it is not required that it is 
posted and identified in a place to contact that company to 
say, ``What are you using my image for?'' We in America have 
the right to know if we are under surveillance, and what are 
you doing with it.
    Another thing, any release of data that you are gathering 
should be required to go through some type of process for the 
release of that. So, I can't just put a camera up, gather 
information, and then sell it. We are having this conversation 
about the Ring doorbell. We know that that is helping to get 
criminals, but if you are going to give the information from 
Ring to the local police department, there should be some 
formal process of disclosure and inclusion to the public so 
that they know that is happening.
    I am very concerned about the movement of this technology. 
So, some places have just said we are not going to use it. And 
we know this technology is here and is moving forward. Instead 
of just saying don't use it, we need to be, as Congress, very 
proactive of setting ethical standards. Have an expectation 
that our public can say that if I am being--if my image is 
being used, I know, and I have a right to what are my rights. 
And that is something that I feel strongly.
    Mr. Whittaker, in your opinion, with so many--I am sorry, 
Ms. Whittaker, so many variations of accuracy in the 
technology, what can we do that will say that we will take out 
these biases. We know that there have not been the algorithms. 
What can we do as a Congress to ensure that we are stopping 
this?
    Ms. Whittaker. Thank you for the question.
    I think, you know, when we talk about this technology 
racing forward, I think we have had an industry that has raced 
forward selling these technologies, marketing these 
technologies, making claims to accuracy that end up not being 
totally accurate for everyone. What we have not seen is 
validation race forward. We have not seen public understanding 
and new mechanisms for real consent, not just a sort of notice 
equals consent.
    So, I think we need to pause the technology and let the 
rest of it catch up, so that we don't allow corporate interests 
and corporate technology to race ahead to be built into our 
core infrastructure without having put the safeguards in place.
    Mrs. Lawrence. Now, the police chief in Detroit submitted a 
record, and I said this to him face-to-face. And he made a 
promise that there will never be a trial in court based solely 
on facial recognition. There should be something in our civil 
rights law and our justice system that does not allow a person 
to be persecuted, based on the fact that we know this data is 
not accurate and it has biases based on facial recognition. And 
that is something I think we as a Congress should do.
    Thank you. My time is expired.
    Chairwoman Maloney. Thank you. You raised a lot of very 
good points.
    The gentleman from Ohio, Mr. Jordan, is now recognized for 
questions.
    Mr. Jordan. Thank you, Madam Chair.
    Ms. Whittaker, it is wrong sometimes, isn't it? And it is 
disproportionately wrong for people of color. Is that right? 
And this all happens--it is my understanding this all happens 
in a country, in the United States, where we now have close to 
50 million surveillance or security cameras across the Nation. 
Is that right? You can say yes. You don't have to just nod. 
Yes, okay.
    And we talked earlier about context. I think a number of 
witnesses have talked about context, and you know, there is the 
context of opening your phone is different than your apartment 
complex having a camera there, when we are talking about in the 
private sector. But it seems to me the real context concern is 
what is happening in--as a number of my colleagues have pointed 
out, what is happening with the Government and how the 
Government may use this technology. And we know the American 
Bar Association said facial recognition was used by Baltimore 
police to monitor protesters after the death of Freddie Gray a 
few years ago in the city of Baltimore, which is scary in and 
of itself.
    And then, of course, you had five bullet points, I think, 
and I appreciate what you are doing with the institute that you 
co-founded. But point number five you said this, ``Facial 
recognition poses an existential threat to democracy and 
liberty.'' That is my main concern is how Government may use 
this to harm our First Amendment and Fourth Amendment 
liberties.
    So, and you have got to think about context even in a 
broader sense. I think we have to evaluate it in light of what 
we have seen the Federal Government do in just the last several 
years. You know how many times the FBI lied to the FISA court 
in the summer of 2016 when they sought a warrant to spy on a 
fellow American citizen? Are you familiar with Mr. Horowitz's 
report from last month, Ms. Whittaker?
    Ms. Whittaker. I am. I don't remember the exact number.
    Mr. Jordan. Seventeen times. Seventeen times they misled a 
court, where they go to the court, and there is no advocate 
there looking out for the rights of the citizen who is going to 
lose their liberty, who is going to be surveilled on. And 17 
times they misled the court. And we found out it was worse than 
we thought. They didn't spy on one American. They spied on four 
Americans associated with the Presidential campaign. That has 
probably never happened in American history.
    So, when we talk about context, it is not just how facial 
recognition can be used by the Government. We already know it 
has been. It was used in Baltimore to surveil protesters. And 
you view it in a broader context, where the FBI went after four 
American citizens associated with the Presidential campaign, 
and we know they misled the court in the initial application 
and through renewals 17 times. And of course, that is after 
what happened a decade ago.
    A decade ago, the IRS targeted people for their political 
beliefs. There was no facial recognition technology there. They 
just did it. Went out and targeted groups. Asked them questions 
like ``Do you pray at your meetings? Who are the guests at your 
meetings?'' before they could get a tax-exempt status.
    So, this is the context. And so when we talk about why we 
are nervous about this, context is critical. And the context 
that is most critical and most concerning to, I think, 
Republicans and Democrats on this committee and, frankly, all 
kinds of people around the country who have taken some time to 
look into this a little bit is how the Government will use it 
and potentially violate their most basic liberties. And that is 
what we are out to get.
    And you said in your testimony--you said in your testimony, 
you are for--bullet point number five, ``It is time to halt the 
use of facial recognition in sensitive social and political 
contexts.'' Can you elaborate a little bit on that? What do you 
think that--when you say ``halt,'' are you looking for a just 
flat-out moratorium on Government expanding it, stopping its 
use? What would you recommend, Ms. Whittaker?
    Ms. Whittaker. Thank you for that question and that 
statement.
    Yes, I would recommend that. I would also recommend that 
the communities on whom this is going to be used have a say in 
where it's halted and where it may be deployed. Are the people 
who are the subjects of its use comfortable with its use? Do 
they have the information they need to assess the potential 
harm to themselves and their communities? And is this something 
that--have they been given the information they need to do 
that?
    Mr. Jordan. Are you talking in a private sector context? 
Like I think the reference would be like an apartment complex 
and whether you can enter versus a key or some kind of fob or 
something, it be that, or are you talking--explain to me--
elaborate on that if you could?
    Ms. Whittaker. Yes, absolutely. You know, I am talking 
about both. And I think the Baltimore PD example is instructive 
here because the Baltimore PD was using private sector 
technologies. They were scanning Instagram photos through a 
service called Geofeedia that gave them feeds from Freddie Gray 
protests.
    They then were matching those photos against their Faces 
facial recognition algorithm, which is a privately developed 
facial recognition algorithm, to identify people with warrants, 
whom they could then potentially harass. So, there is an 
interlocking relationship----
    Mr. Jordan. Sure.
    Ms. Whittaker [continuing]. as I say in my written 
testimony, between the private sector, who are essentially the 
only ones with the resources to build and maintain these 
systems at scale, and the government use of these systems. So, 
there's two levels of obscurity. There is law enforcement 
exemption, military exemption, where we don't get the 
information about the use of these technologies by government, 
and then there is corporate secrecy. And these interlock to 
create total obscurity for the people who are bearing the costs 
of these violating technologies.
    Mr. Jordan. Thank you. My time has expired. I appreciate 
it, Madam Chair.
    Chairwoman Maloney. Thank you. The gentleman from 
California, Mr. Gomez, is now recognized for questions.
    Mr. Gomez. First, every time I listen to a discussion on 
facial recognition, more and more questions emerge. It is 
amazing. I would like to thank my colleagues on both sides of 
the aisle. I know folks think that Democrats don't care about 
liberties or freedoms, but we do. But we also care about not 
only the public space, but also in the bedroom and over one's 
body, right? That is the way I kind of approach this issue, 
from a very personal perspective.
    I made my concerns about this technology pretty clear. You 
know, the dangers it imposes on communities of color when used 
by law enforcement, racial bias in artificial intelligence. And 
as I was looking into it, Amazon continues to come up because 
they are one of the most aggressive marketers of this new 
technology. And they do it under a shroud of secrecy.
    I want to be clear. I know that this technology isn't going 
anywhere. It is hard to put limits on technology, especially 
when using the law. And I have seen this time and time again, 
coming from California, where you have large companies 
understand that the wheels of government turn slowly. So, if 
they can just move quickly, they will outpace, outrun the 
government in putting any kind of limitations. You have seen 
this with some scooter companies who dump thousands of scooters 
on the street, no regulations, and then all of a sudden, it 
forces the government to react.
    But we will react, and we will start putting some 
limitations on it. I know that it is tough, but there are a lot 
of questions. One of the things that I have been trying to 
figure out, what agencies--like what companies, what agencies, 
what Federal authorities are using it? How are they using it? 
Who sold it to them? And if there is a third-party validator, 
like NIST, who has evaluated its accuracy. Because when this 
technology does make a mistake, the consequences can be severe.
    According to the NIST study, it said an identification of 
application such as visa or passport fraud detection or 
surveillance of false positive to match another individual 
could lead to a false accusation, detention, or deportation. 
Dr. Romine, the recently released NIST study found that facial 
recognition technology not only makes mistakes, but the 
mistakes are more likely to occur when an individual identified 
are racial minorities, women, children, or elderly individuals. 
Is that correct?
    Mr. Romine. For most algorithms we tested, that's correct.
    Mr. Gomez. Did your study find that these disparities were 
limited to just a few developers, or was the bias in accuracy 
more widespread?
    Mr. Romine. It was mostly widespread, but there were some 
developers whose accuracy was sufficiently high that the 
demographic effects were minimal.
    Mr. Gomez. Are you aware if--I know Ms. Whittaker answered 
this question, but has Amazon ever submitted their technology 
for review?
    Mr. Romine. They have not submitted it, but we have had 
ongoing discussion with them about how we can come to an 
agreement about their submitting the algorithm. It's an ongoing 
conversation, so it's an active conversation that we're still 
having.
    Mr. Gomez. How long has it been ongoing?
    Mr. Romine. I don't know exactly, but it's been some months 
at least.
    Mr. Gomez. OK. And you know, this is in the context of them 
trying to put out a blog post, and that blog post regarding 
their principles that you are referring to was in response to a 
letter that myself and Senator Markey sent to them. And you 
would think that it would be more than just a blog post. You 
would think that it would be something more serious and rises 
to the level of our concerns.
    But with that, want to ask, Ms. Leong and Ms. Whittaker, I 
want to ask each of you, can you each discuss the implications 
of the newly released NIST report on the use of facial 
recognition software? What are the potential harms of using 
biased systems?
    Ms. Leong. I think the benefit of the report is that it 
discloses the bias that is present in many of the algorithms 
being used and gives consumers, both as individuals or 
businesses who might be selecting these algorithms for use, you 
know, good information on which to make their choices.
    I want to just make the point that even though a large 
number of algorithms were tested, those are not equally spread 
across the market in terms of representing market share. The 
vast majority of the market right now at the high end--and 
particularly, that is government contracts at Federal, state, 
and local levels, as well as the high-end, commercial uses, 
like the NFL or sport stadiums or venues or amusement parks or 
things like that--overwhelmingly already employ the algorithms 
that are at the top end of this spectrum and that have very low 
error rates. So, it's not an evenly distributed problem, and 
that's part of the problem is understanding where the 
algorithms are being used and by whom that are causing the most 
harm.
    Mr. Gomez. Ms. Whittaker? And with that, it will be my end, 
but I will let you answer.
    Ms. Whittaker. Thank you.
    Absolutely, I think it's important to emphasize, as Mr. 
Jordan did, that accurate facial recognition can also be 
harmful. So, bias is one set of problems, but this goes beyond 
that. I think any place where facial recognition is being used 
with social consequences, we will see harm from these racially 
and gender biased disparate impact.
    So, I think we can look at the case of Willie Lynch in 
Florida, who was identified solely based on a low-confidence 
facial recognition match that was taken by an officer of a cell 
phone photo. He is now serving eight years based on that photo 
and had to struggle and was eventually denied to get that 
evidence released during his trial. So, we're seeing high 
stakes that really compromise life and liberty here from the 
use of these biased algorithms.
    And you know, in response to the question of where they are 
being used, which algorithms are being used here, we don't have 
public documentation of that information. We don't have a way 
to audit that, and we don't have a way to audit whether they 
are--whether NIST's results in the laboratory represent the 
performance in different contexts, like amusement parks or 
stadiums or wherever else. So, there's a big gap in the 
auditing standards, although the audits we have right now have 
shown extremely concerning results.
    Mr. Gomez. With that, I yield back, Madam Chair.
    Chairwoman Maloney. Thank you.
    The gentlewoman from West Virginia, Mrs. Miller, is now 
recognized for questions.
    Mrs. Miller. Thank you, Chairwoman Maloney and Ranking 
Member Jordan.
    As technology evolves, it is important that we are on top 
of it. I saw firsthand how they were using facial recognition 
when I was in China as a form of payment. I was also exposed to 
several concerning uses of facial recognition technology. As a 
committee, it is our responsibility to make sure that anything 
that is done in the United States is done thoughtfully and 
prioritizes the safety and individual security.
    Mr. Parker, when I am at a busy airport, I am really glad 
that I have CLEAR to get through. Even though we have TSA, when 
you are in a hurry, it is really nice that you can use 
recognition and go forward. Can you elaborate on some examples 
of beneficial uses for consumers and businesses?
    Mr. Parker. Sure. And I'll stick, I guess, to the private 
sector uses, but also security and safety related. So, one 
really important one is protecting people against identify 
theft and fraud, something you may not think about. But here is 
how it works in many instances.
    So, someone walks into a bank and asks to open a line of 
credit using a fake driver's license with the customer's real 
information. As part of the process, the teller tells them they 
have to have their photo taken. That comparison is made, and 
they determine it may not be the person that they say they are. 
And so they say, ``I better talk to my management.'' By that 
time, the person that's going to commit fraud is probably long 
gone, right? But that's a really useful case for the technology 
that people don't think about.
    Also, so I guess from our industry, facial recognition is 
also able to provide additional security for facility access 
control. It's typically to augment, though, other credentials, 
such as keys or cards, but these things can be shared, stolen, 
or simply lost. Biometric entry systems provide an additional 
convenience to registered users. For example, when there is--
for expedited entry into an office building for commercial 
offices during rush times.
    Another example, the technology is being used to reduce 
organized retail crime and theft, which has skyrocketed in 
recent years, hurting American businesses, consumers, taxpayers 
alike.
    Mrs. Miller. Do you think that the mainstream media outlets 
have given an honest portrayal of how this technology is 
utilized and the reality of its capabilities?
    Mr. Parker. And so, I don't think so. I think this is a 
complex issue, as we've been talking about here, and I think it 
tends to get oversimplified and mischaracterized. Going back to 
what I said earlier, I think the issue is that what's causing 
some concern is about how the technology is used. It's not the 
technology itself. And I think there's other technologies that 
could be used in similar ways, and so we need to think more 
constructively about what the rules should be about the use of 
many different types of technology.
    Mrs. Miller. Thank you.
    Dr. Romine, I have a very good friend in West Virginia by 
the name of Chuck Romine, and his son is Dr. David Romine. But 
if we scanned both of you, you would not look anything alike. 
During a House Homeland Security Committee hearing on July 11, 
in your testimony you discussed accuracy rates across multiple 
demographics and how inaccurate results are diminishing. Now 
that you have published the report, is that still accurate, and 
in what other areas is this technology improving?
    Mr. Romine. So, I hope my statement in July was that the 
most accurate algorithms are exhibiting diminishing demographic 
effects. And we certainly do believe that this, the report that 
we released just last month, confirms that.
    Mrs. Miller. You also stated that anytime the overall 
performance of the system improves, the effects on different 
demographics decrease as well. Is that still something that is 
still true to this day?
    Mr. Romine. That is correct.
    Mrs. Miller. Good. Knowing that accuracy rates have 
improved within 2014 to 2018, can you further explain the role 
of performance rates and why they are important for the end-
users of these technologies?
    Mr. Romine. Absolutely. It's essential that in the 
selection of a system, you understand the algorithm that the 
system uses and select for an accuracy that is sufficiently 
robust to provide you the minimized risk for the application. 
In some cases, the application may have very limited risk, and 
the algorithm may not be important. In other cases--or as 
important. But in other cases, the risk may be severe, such as 
identification of suspects, for example, or access to critical 
infrastructure. If there is facial recognition being used for 
that, then you want to have an algorithm basis for your system 
that is high-performing.
    Mrs. Miller. Could you speak to where your researching 
techniques that exist to mitigate performance differences among 
the demographics and what is emerging research and standards in 
NIST interested in supporting?
    Mr. Romine. Sure. Thank you for the question.
    Although we didn't specify too many of the mitigations that 
we would expect people to adopt today, one of the things that 
we do want to do is to point policymakers and consumers to ways 
in which these things can be mitigated. One of the mitigations 
can be a determination of an appropriate threshold to set to 
ensure that any algorithm that you use, you set an appropriate 
threshold for the use case. Another is a possible use of a 
separate biometric. So in addition to face, having a 
fingerprint or an iris scan or some other type of biometric 
involved that would help to reduce the error substantially 
more.
    Mrs. Miller. Thank you. I yield back my time.
    Chairwoman Maloney. Thank you.
    The gentlewoman from Massachusetts, Ms. Pressley, is 
recognized for questions.
    Ms. Pressley. Thank you, Madam Chair.
    The use of facial recognition technology continues to grow 
at a breathtaking pace and is now seeped into nearly every 
aspect of our daily lives. Many families are unaware that their 
faces are being mined as they walk through the mall, the aisles 
of the grocery store, as they enter their homes or apartment 
complexes, and even as they drop their children off at school. 
In response, several municipalities, including within the 
Massachusetts Seventh congressional District, which I 
represent--So,merville and Cambridge, respectively--have 
stepped up to the plate to protect their residents from this 
technology.
    We know that the logical end of surveillance is often over-
policing and the criminalization of vulnerable and marginalized 
communities. It is also why I worked with my colleagues 
Representative Clarke and Representative Tlaib on legislation 
to protect those living in HUD public housing from this 
technology.
    More recently, school districts have begun to deploy facial 
analytics in school buildings and at summer camps, collecting 
data on teachers, parents, and students alike. Ms. Leong, how 
widespread is the use of this technology on children in 
schools?
    Ms. Leong. We're seeing facial recognition systems being 
implemented more and more in schools. I think the actual number 
is still very small in terms of percentage penetration of the 
number of schools in this country, but it's certainly spreading 
and growing.
    And it's one of the use cases we think is entirely 
inappropriate, that there's just really no good justification 
for a facial recognition system in a K-to-12 school. They are 
mostly being used in security applications, sometimes in a sort 
of fear-driven response to school shooter scenarios and things 
like that, which, in my opinion, they do not adequately address 
in any meaningful way and is not the best use of funds or the 
best way to heighten security around schools in response to 
those threats.
    The other part of your question that was the facial 
characterization programs, which I think are being used more 
and more in an educational context, where we are seeing systems 
that try to evaluate are students paying attention? What's the 
engagement rate? What's the response rate of students to 
certain teachers or types of teaching or things like that?
    As I think was mentioned once earlier in the hearing by 
someone else, that is based on very questionable data at this 
point, and I think in the not ready for primetime category 
definitely qualifies in the sense that we're seeing it very 
quickly applied in many use cases that the science and the 
research is not there to back up. And it's particularly 
concerning when you're talking about children in schools, not 
only because they're essentially a captive population, but 
because the labels or decisions that might be made about those 
children based on that data might be very, very difficult to 
later challenge or in any way reduce the effects on that 
particular child.
    Ms. Pressley. Well, yes, serious security and privacy 
concerns. Dr. Romine, your study found that the error rate of 
facial analytic software actually increased when identifying 
children. Is that correct?
    Mr. Romine. For most algorithms, that's correct.
    Ms. Pressley. OK. And why was that?
    Mr. Romine. We don't know the cause and effect exactly. 
There is speculation that children's faces are--have--with less 
life experience, there are less feature-rich faces, but we 
don't know that for sure because the convolutional neural 
networks that are used are--it's difficult to make a 
determination of the reason.
    Ms. Pressley. Got it. And many of you have mentioned in 
which these image data bases can be vulnerable to hacking or 
manipulation. Ms. Whittaker, when children's images are stored 
in data bases, are there any unique security concerns that they 
raise or that may arise?
    Ms. Whittaker. Absolutely. Security for minors is always a 
concern.
    Ms. Pressley. OK. Well, this technology is clearly biased, 
inaccurate, and even more dangerous when used in schools, where 
black and brown students are disproportionately already over-
policed and disciplined at higher rates than their white peers 
for the same minor infractions. In my district, the 
Massachusetts Seventh alone, black girls are six times more 
likely to be suspended from school and three times more likely 
to be referred to law enforcement, again, for the same 
infractions as their white peers. Our students don't need 
facial recognition technology that can misidentify them and 
lead them to the school-to-confinement pathway.
    Last fall, I introduced the Ending PUSHOUT Act, which would 
urge schools to abandon over-policing and surveillance and to 
instead invest resources in trauma-informed supports, access to 
counselors and mental health professionals, resources that will 
really keep our kids safe. In my home state of Massachusetts, a 
broad coalition of educators, civil rights, and children's 
rights advocates are leading the fight and saying no to the 
deployment of facial recognition technology in our schools, and 
I am grateful for their activism and their solidarity on this 
issue.
    I would like to include, pardon me, for the record a letter 
from the BTU, the NAACP, AFT Massachusetts, MTA, the AFCLU 
Massachusetts, and many others, urging our state to reject 
additional surveillance and policing in our schools.
    Chairwoman Maloney. Without objection, so ordered.
    Ms. Pressley. Thank you. And I yield.
    Chairwoman Maloney. Thank you.
    And the gentleman from North Dakota, Mr. Armstrong, is now 
recognized for questions.
    Mr. Armstrong. Thank you, Madam Chair.
    I think there are a couple things that we should talk about 
for a second because I think they are important. And one of 
them--I am going to go to the Fourth Amendment and criminal 
context and how this could be deployed there. And this isn't 
the first time we have seen the crisis in Fourth Amendment. It 
happened with telephoto lenses. It happened with distance 
microphones, GPS trackers, drones, and now we are at facial 
recognition. And to be fair, the Fourth Amendment has survived 
over time pretty well, but biometric information has a 
different connotation, which I will get to in a second.
    I also agree with Ranking Member Jordan that we can't leave 
this for the courts to decide. And one of the reasons we can't 
is the courts are going to take a constitutional view of 
privacy, not a popular culture view of privacy. And so when we 
are into the civil context and data sharing and these types of 
issues, I will be the first to admit, my facial recognition 
didn't work on my phone over Christmas. You know what I did? 
Drove immediately to the cell phone store and got a new one. 
So, I understand the convenience of it and those things.
    But the Carpenter case is a pretty good example of how at 
least the U.S. Supreme Court is willing to change how they view 
privacy in the digital age. So, part of our job as Congress is 
to ensure that we write a law and write regulations that ensure 
that we can maintain those types of privacy standards.
    Now one of the reasons biometric--and I wish some people 
were here--is a little different is because there is one unique 
thing in a criminal case that is really, really relevant to 
facial recognition, and that is identity cannot be suppressed. 
I can suppress a search. I can suppress 40 pounds of marijuana. 
I can suppress a gun. I can suppress a dead body. But you 
cannot suppress identity.
    So, as we are continuing to carve through these, one thing 
I think we have to absolutely understand is in these types of 
cases, we need to apply a statutory exclusionary rule. 
Otherwise, any regulations we pass don't really, truly matter 
in a courtroom. And two, we have to figure out a way for 
meaningful human review in these cases.
    Because when they say, we will never prosecute somebody 
solely on facial identity, well, that is a fair statement, 
except there has to be an underlying offense of a crime, so 
they are prosecuting them on something else as well. And it is 
really, really important.
    But I also think it is important to recognize that not all 
populations are the same. There is a big difference between 
using facial recognition in a prison setting and even, quite 
frankly, in a TSA or a border setting than there is for a law 
enforcement officer walking around the street with a body 
camera or people getting profiled at a campaign rally. And so 
we have to continue to have those conversations.
    But I also want to point out that one of the things we have 
to do when we are dealing with these types of things in the law 
enforcement scenario, and I don't care what law enforcement it 
is--state, local, Federal, DEA--all of those issues have to 
figure out a way to account for false positives.
    And the reason I say that is, and I am going to use a not 
an apples-to-apples analogy, but in North Dakota, highway 
patrolmen have drug dogs. Not all of them, but some of them, 
and they are multi-use. I mean, our law enforcement usually has 
those.
    So, if you are speeding down the street or speeding down 
the highway going 75 in a 55, and you get pulled over and that 
highway patrolman happens to have a drug dog in his car, and he 
walks that drug dog around your car and that dog alerts, and 
they search your car and they don't find any drugs and they let 
you leave, and they give you your speeding ticket and you go 
along your way, that data never shows up in that dog's training 
records. It never shows up.
    So, when you are talking about the accuracy of a drug dog, 
when you are talking about the accuracy of finding a missing 
girl, or any of those issues, we cannot wait until that 
situation arises. Because if there is a missing girl on the 
Mall out here, I will be the first one standing at the top of 
the Capitol steps saying use whatever technology to deploy. 
Grab everybody you can. Let's find this little girl. And I 
agree with that there. But you cannot have meaningful 
regulation unless you have meaningful enforcement.
    And one of the concerns I have when deploying this 
technology in a law enforcement setting is it is very 
difficult, by the nature of how that works, to deal with those 
false positives. Like my questions are when we are talking 
about the missing girl or the rice cookers is, how many people 
were stopped? How many people were stopped that weren't that 
person? I am glad they found her. I am glad they caught the 
guys.
    But we have to be able to have a situation in place where 
we can hold people accountable. And the only ways I can think 
of to do that is to continue to develop this. One, use it in 
populations, where--I mean, and perfect it.
    Now the problem with the prison population is you have a 
static population. The problem with the Mall outside is it is a 
completely variable population. But I think when we move 
forward with this, and particularly in a law enforcement and 
criminal setting, we have to recognize the fact that you cannot 
suppress identity.
    So, it is different than a lot of other technologies. 
Because if your number is 90 percent and you stop somebody at 
60 percent and it still happens to be that person, under 
current criminal framework, they are not--I can make that 
motion, the judge will rule in my favor, and say, ``Too bad, 
still arrested.'' So, with that, I yield back.
    Chairwoman Maloney. Thank you.
    The gentlewoman from Michigan, Ms. Tlaib, is now recognized 
for questions.
    Ms. Tlaib. Thank you, Madam Chair.
    I think many of you probably already know I am particularly 
disturbed by the aspect of facial recognition technology being 
used by landlords and property owners to monitor their tenants, 
especially in public housing units. In Detroit, for example, 
the city's Public Housing Authority recently installed security 
cameras on these public housing units that we believe is going 
to be something that encroaches onto people's privacy and their 
civil liberties.
    You know, these are people's homes. And so, I don't think 
being poor or being working class means somehow that you 
deserve less civil liberties or less privacy. And so, Ms. 
Leong, what are the privacy concerns associated in enabling 
facial recognition software to monitor public housing units? If 
you live in a low-income community, is your civil liberties or 
your privacy lessened?
    Ms. Leong. Thank you for the question. And of course not. 
At least hopefully not.
    I think this is a great example of the conversation that 
needs to happen at the beginning of this, which is what is the 
problem that they're trying to solve by putting this into a 
housing complex, any housing complex? What is the landlord or 
the owner's gain? What is it they're trying to do? Is it 
convenience? Is it some level of security? Is it just because 
it's a really cool technology that they offered him on a 
discount, and he wants to use it? What is he trying to gain 
from it?
    And then with that in mind, what are the risks to the 
occupants? In my opinion, that would be a commercial use, which 
would mean that even if it was installed, it would be only for 
those residents who chose to opt in and enroll and use it as 
their way in and out of the building. But for residents who 
didn't want to, they would not be enrolled in the data base and 
should not be included in that.
    But certainly, from a civil liberties point of view, if 
this was being used in some way, the other laws about 
inequitable impact or protected classes don't go out the window 
just because you use a new technology. They are still in place, 
still need to be applied. It's sometimes a new way of 
evaluating them because of new technologies, and so they raise 
challenging questions----
    Ms. Tlaib. Ms. Leong, these new technologies, they are for 
profit, right?
    Ms. Leong. The company who designs them----
    Ms. Tlaib. Yes.
    Ms. Leong [continuing]. sells them for profit.
    Ms. Tlaib. They are for-profit technology that are coming 
into communities like mine that is overwhelmingly majority 
black and testing these products, this technology, onto 
people's homes, the parks, the clinics. It is not stopping. Now 
I hear my good colleague from Massachusetts talk about them 
installing it in schools.
    They are using this, and I have a police chief that says, 
oh, this is magically going to disappear crime, but if you 
look, my residents don't feel less safe. They actually don't 
like this green light that is flashing outside of their homes, 
the apartment building, because for some reason he is telling 
everybody it is unsafe here. You know, it takes away people's 
kind of human dignity when you are being policed and 
surveillanced in that way.
    Now, and this is a question for Dr. Romine, they are now 
trying to say we are going to use facial technology as like the 
what do they call, the key fobs. They want to now use access to 
people's homes using facial recognition technology on key fobs. 
So, you know, one of the consequences of that is 
misidentification. I mean, my colleague on the other side just 
talked about how he couldn't even access his phone. I am really 
worried that they are testing my people, my residents are being 
used as testing ground for this kind of technology, of using it 
as a key fob. Do you have any comment in regard to that?
    Mr. Romine. The only comment I have from the NIST 
perspective is that the algorithm testing that we do is to 
provide information to people who will make determinations of 
what is and is not an appropriate use. That includes this--you 
know, this committee, any potential regulation or lack of 
regulation, and any deployment that's made in the private 
sector or otherwise is outside the purview of NIST.
    Ms. Tlaib. Well, I am really proud to be co-leading with 
Congresswoman Pressley, as well as Congresswoman Yvette Clarke, 
and leading No Biometric Barriers to Housing Act, which would 
prohibit any--you know, completely ban facial recognition 
technology on Federal-funded housing buildings and properties. 
We should be very careful. I think Congressman Mark Meadows is 
right.
    You know, I hear some of my colleagues on both sides say, 
well, we got to fix the algorithms, we got to do this. I said, 
well, I am not in the business and we shouldn't be in the 
business of fixing for-profit technology industries, you know, 
these new, you know, they call them tools. They give them all 
these great names, but they are processes in place of, you 
know, human contact, police officers on the street.
    I increasingly talk about this with, you know, the police 
chief and others, and all they can say is, well, we did this, 
and we were able to do that. But like my colleague said, how 
many people did you have to go through? Because I watched while 
they matched a suspect with 170-plus people. I watched as they 
took a male, a male suspect and matched him with a female. One 
hundred and seventy, I watched.
    And the kind of misleading the public of saying, well, you 
must not care about victims. No, I actually do care about 
victims. How about the victim that you are just now 
misidentifying, you are increasing?
    And so, with that, Chairwoman, I do really want--and I hope 
you all read this--but a report by the Detroit Community 
Technology Projects. It is a Critical Summary of Detroit's 
Project Greenlight and its greater contacts and the concerns 
with the use of facial recognition technology in Detroit. I 
would like to submit it for the record.
    Chairwoman Maloney. Without objection.
    Ms. Tlaib. Thank you, and I really do appreciate all of 
your leadership on this. And thank you so much, Chairwoman, in 
doing yet a third hearing on this and continuing this critical 
issue that I know was important to Chairman Cummings. Thank you 
very much.
    Chairwoman Maloney. The gentleman from Kentucky, Mr. Comer, 
is now recognized for questions.
    Mr. Comer. Thank you. And I ask that you bear with me. I am 
battling laryngitis. So, laryngitis with a bad accent doesn't 
spell success.
    [Laughter.]
    Mr. Comer. I think there is bipartisan concern here today 
for facial recognition technology as we move forward. My first 
question is for Dr. Romine, with respect to the National 
Institute for standards testing. What is NIST's role in 
establishing Government-wide policy?
    Mr. Romine. The only role that we have with respect to 
Government-wide policy is providing the scientific underpinning 
to make sound decisions. And so as a neutral, unbiased, and 
expert body, we are able to conduct the testing and provide the 
scientific data that can be used by policymakers to make sound 
policy.
    Mr. Comer. Well, how does a NIST technical standard differ 
from a policy standard?
    Mr. Romine. Well, certainly technical standards can be used 
by policymakers. So, in this case, a determination of a policy 
that was predicated on identification of algorithms that are 
based on their performance characteristics is--would be one 
example of that. But from a policy perspective of what to do or 
what not to do with face recognition technology, that's 
something we would support with scientific data, but not with 
policy proclamations.
    Mr. Comer. Let me ask you this. Is NIST the right agency to 
develop Government-wide policy?
    Mr. Romine. I don't think so, sir. I don't think that's a 
NIST role.
    Mr. Comer. OK. What is NIST's role in developing accuracy 
standards for facial recognition technology?
    Mr. Romine. Our role is in evaluating the accuracy, and in 
particular, one of the things that we've developed over the 
last 20 years is the appropriate measurements to make. These 
measurements didn't exist. We worked with the community to 
develop a set of technical standards for not just the 
measurement itself, but how to measure these things, including 
the reporting of false positives, false negatives, the very 
detailed definition of what those constitute.
    Mr. Comer. Thank you.
    Mr. Parker, I understand that the Security Industry 
Alliance supports the U.S. Chamber of Commerce's recently 
released facial recognition policy principles. What are the 
principles, and why do you support them?
    Mr. Parker. Yes. Thank you for the question.
    Yes, so I think that the Chamber put a lot of really great 
work into developing this framework. And basically, it mirrors 
some of the work that was done earlier by the Department of 
Commerce NTIA.
    They had convened a multi-stakeholder process that included 
industry, but also other parties from the commercial sector 
about what does appropriate commercial use look like. And I 
think, you know, some of the principles have to do with, you 
know, transparency is obviously the main one, but also, as we 
were discussing earlier, what should be done as far as opt-in 
consent in the commercial setting. I think that's going to 
cover most cases, for example.
    Mr. Comer. Well, can you describe how those principles 
balance the need for protecting civil liberties while also 
promoting industry innovation?
    Mr. Parker. Well, I think for the commercial use, we're 
primarily talking about data privacy. So, that's a little 
different. Civil liberties concerns surround Government use 
primarily.
    Mr. Comer. Well, let me followup, and this will be my last 
question. What does the path ahead look like for these 
principles?
    Mr. Parker. So, I think that the debate going on right now 
about establishing a national framework for data privacy is a 
really important one. And I think that how to set rules for use 
of the technology in the commercial setting, it's within that 
framework. And so, I know we've had the GDPR in Europe, but 
also in the United States, we have some states that are 
establishing their own frameworks. And that could be a real 
problem for our economy if we don't establish standardized 
rules.
    Mr. Comer. OK. Thank you.
    Madam Chair, I yield back the balance of my time.
    Chairwoman Maloney. Thank you.
    The gentleman from Virginia, Mr. Connolly, is now 
recognized for questions.
    Mr. Connolly. I thank the chair.
    And thank you all so much. It has been a stimulating 
conversation. It just seems to me, you know, we are going to 
have to really grapple with what are the parameters of 
protecting privacy and controlling the use of this technology. 
And one of the traps I hope, on my side of the aisle 
particularly, we don't fall into is continuously citing the 
false IDs. Because if we make the argument this technology is 
no good because there are a lot of false IDs, that may be true 
today and the concern is legitimate, but technology's nature is 
it will improve.
    So, what will we say when it becomes 95 percent accurate? 
Then what? Are we conceding the argument that, well, then you 
can used it with impunity?
    I would certainly argue, irrespective of its accuracy, 
there are intrinsic concerns with this technology and its use. 
And maybe we have to look at things like opt-in and opt-out, 
where you actually require the consent of anybody whose face is 
at issue to be able to transfer it to another party whether you 
are Government or not Government.
    Mr. Parker, you were talking about primarily being 
concerned about how Government uses facial recognition 
technology, but do we have any reason to believe the private 
sector might also generate some concerns?
    Mr. Parker. Sure. That's why we need to establish best 
practices about how it's used, you know, particularly in any 
applications where there is any kind of serious consequence for 
errors, you know, for example.
    Mr. Connolly. Errors. Well, let me give you a different 
example. So, IBM got a million photos from a photo hosting site 
called Flickr. It sent the link to that data base, a million 
faces, to Chinese universities.
    Now that wasn't the Government doing it. It was a private 
entity. And it wasn't about accuracy, it was about an entire 
dataset going to a foreign adversary who has a track record of 
actually using this technology to suppress and persecute 
minorities, for example, Uyghurs, to wit. We know they are 
doing that.
    So, might you have any concern about a company like IBM 
engaging in that kind of behavior, in transferring an entire 
dataset to Chinese universities with close ties, obviously, to 
the Chinese government?
    Mr. Parker. Yes, certainly. And I think we've seen this 
reflected in U.S. Government policy, too, which established a 
restriction on exports to a number of Chinese companies, 
particularly those that are developing this technology that 
we're talking about.
    Mr. Connolly. Ms. Whittaker, your views about that?
    Ms. Whittaker. Well, I think that highlights one of the 
issues that trying to implement consent raises, which is that 
those photos are already on Flickr. Those are photos that 
someone may have put on Flickr during a very different 
Internet, when facial recognition at scale was not a technical 
possibility the way it is today. And they are now being scraped 
by IBM. They are being scraped by many, many other researchers 
to comprise these datasets that are then being used to train 
these systems that may be erroneous, that may target our 
communities, and that may violate our civil liberties.
    So, where we ask for consent, how consent could work, given 
that we have a 20-year history where we've clicked through 
consent notifications without reading them as a matter of habit 
to get to the core technical infrastructures of our lives, 
remains a big, open question. And I think we would need to be 
able to answer that.
    Mr. Connolly. Certainly, I think we could agree, could we 
not, that whether I clicked consent for Flickr or any other 
entity to have access to and within reason use my photo, I 
never contemplated having that photo transferred to a foreign 
government or to a university with close ties to a foreign 
government?
    Ms. Whittaker. Yes, or to have a corporation use it to 
train a system that they might sell to law enforcement in ways 
that targets your community.
    Mr. Connolly. Right.
    Ms. Whittaker. There's a lot of things we did not consent 
to.
    Mr. Connolly. Well, it just seems to me, Madam Chairman, 
that this being the third hearing where we all have expressed 
concern about the zone of privacy and, frankly, informed 
consent about citizens or noncitizens whose data--in this case, 
their face--may be used and how it may be used and transferred 
to a third party, we have got some work to do in figuring out 
the rules of engagement here and how we protect fundamental 
privacy rights of citizens. Unless we want to go down the road 
of expanding and transferring--excuse me, transforming the 
whole definition of the zone of privacy. And that is a very 
different debate. But it seems to me that we can't only concede 
the technology will drive the terms of reference for privacy.
    Thank you, Madam Chairman.
    Chairwoman Maloney. Thank you.
    The gentleman from Wisconsin, Mr. Grothman, is now 
recognized for questions.
    Mr. Grothman. OK. Maybe I will start with Ms. Whittaker, 
but anybody else can jump in if they want, I guess. Could you 
go over a little bit the degree or how this technology is being 
used in China today?
    First of all, though, I would like to thank Mr. Connolly 
for his comments. I think the inference that the major problem 
here is getting false information is, I don't think, the 
biggest concern. I think the biggest concern is it becomes more 
and more--it is better and better as the evil uses that it is 
used for. And some of my colleagues seem to imply that as long 
as we are not getting any false information, apparently, the 
more information we have, the better. I think sometimes the 
less information the Government has, the better.
    But, OK, Ms. Whittaker, go ahead.
    Ms. Whittaker. Absolutely. Thank you for the question.
    I want to preface my answer by saying that I am an expert 
on artificial intelligence, and I understand the tech industry 
very well. I'm not a China expert. However, it is very clear 
that these technologies are being used in China to implement 
social control and the targeting of ethnic minorities. You have 
networks of facial recognition systems that are designed to 
recognize individuals as they go about their daily lives and 
issue things like tickets if they jaywalk, if they are 
recognized by a facial recognition system.
    Mr. Grothman. Could it be used--people attend religious 
ceremoneys in China, would it be used there?
    Ms. Whittaker. Absolutely. The same way that Baltimore 
police used it to look at people who attended a Freddie Gray 
protest. It's the same principle. You're just seeing it 
deployed in a different context.
    Mr. Grothman. I attended a rally last night for President 
Trump. I think about 12,000 people were there. Do you think it 
is possible that any facial recognition technology was being 
used there, so people would know who was showing up at the 
rally, who was hanging around outside before the rally?
    Ms. Whittaker. The capacities in technological affordances 
certainly exist. Again, the type of obscurity within which 
these technologies are deployed by both the Government and the 
private sector makes it very difficult to speculate beyond that 
because we are just not told when it's used and where.
    Mr. Grothman. Would it surprise you if it was being used 
there?
    Ms. Whittaker. No.
    Mr. Grothman. OK. There is the concern I have. And we have 
a Government that has weighed in against certain people. The 
ranking member pointed out the IRS in the past has shown strong 
bias against conservatives, okay, and we use the power of 
Government against conservatives. We had a major Presidential 
candidate a while ago saying he wants to take people's guns. 
And so you got to worry, you know?
    Would it surprise you if facial recognition technology was 
being used--I am going to attend a gun show this weekend in my 
district. Would it surprise you if facial recognition 
technology was being used to develop a data base of people 
going in that gun show?
    Ms. Whittaker. Facial recognition is being used to develop 
or against many different kinds of data bases.
    Mr. Grothman. OK. Kind of concerning there. To me, that is 
the major concern, that our country will work its way toward 
China, as we have--I think a while back we had a Presidential 
candidate, you know, hostilely question a prospective judge 
because they were a member of the Knights of Columbus, which is 
kind of scary. Could you see the day coming in which we are 
using facial technology to identify which people are, say, 
attending a Catholic Church? That apparently seems to bother 
some people.
    Ms. Whittaker. Again, that's the same principle as the 
Baltimore Police Department using it to see who attends a 
Freddie Gray rally and target them if they have a warrant. So, 
it is already being used in that capacity, irrespective of 
which group it's targeting or not.
    Mr. Grothman. If you set up a Catholic Church in China, do 
you think the Red Chinese government would probably be trying 
to use facial recognition technology to know in the future who 
is a member of that church? I don't know if they have any 
Knights of Columbus chapters in China, but you know, 
identifying in China if you would show up at a Knights of 
Columbus meeting?
    Ms. Whittaker. Again, the technological capabilities exist, 
but I am an artificial intelligence expert, not a Chinese 
geopolitical expert.
    Mr. Grothman. Anybody else want to comment on what is going 
on in China?
    Ms. Whittaker. I think it is a model for authoritarian 
social control that is backstopped by extraordinarily powerful 
technology. I think one of the differences between China and 
the U.S. is that their technology is announced as state policy. 
In the U.S., this is primarily corporate technology that is 
being secretly threaded through our core infrastructures 
without that kind of acknowledgment.
    Mr. Grothman. Right. Amazon a big player here?
    Ms. Whittaker. Absolutely. Amazon is one of the big----
    Mr. Grothman. They are a very political group, aren't they? 
Or they have expressed strong political opinions?
    Ms. Whittaker. They certainly hire many lobbyists.
    Mr. Grothman. OK. I think they have--okay. Thank you for 
giving me an extra few seconds.
    Chairwoman Maloney. Thank you.
    The gentlelady from New York, Ms. Ocasio-Cortez?
    Ms. Ocasio-Cortez. Thank you, Chairwoman Maloney. And thank 
you again for holding a third hearing on something that is so 
important and is such an emerging technological issue that it 
is really important for the public to understand.
    We have heard a lot about the risk of harm to everyday 
people posed by facial recognition, but I think it is important 
for people to really understand how widespread this is. Ms. 
Whittaker, you made a very important point just now that this 
is a potential tool of authoritarian regimes, correct?
    Ms. Whittaker. Absolutely.
    Ms. Ocasio-Cortez. And that authoritarianism or that 
immense concentration of power could be done by the state, as 
we see in China, but it also could be executed by mass 
corporations, as we see in the United States, correct?
    Ms. Whittaker. Yes.
    Ms. Ocasio-Cortez. So, can you remind us, Ms. Whittaker or 
Ms. Leong, can you remind us of some of the most common ways 
that companies collect our facial recognition data?
    Ms. Whittaker. Absolutely. They scrape it from sites like 
Flickr. Some use Wikipedia. They collect it through massive 
networked market reach. So, Facebook is a great example of 
that.
    Ms. Ocasio-Cortez. So, if you have ever posted a photo of 
yourself to Facebook, that could be used in a facial 
recognition data base?
    Ms. Whittaker. Absolutely. By Facebook and potentially 
others.
    Ms. Ocasio-Cortez. If you have posted it to Wikipedia?
    Ms. Whittaker. Yes.
    Ms. Ocasio-Cortez. Could using a Snapchat or Instagram 
filter help hone an algorithm for facial recognition?
    Ms. Whittaker. Absolutely.
    Ms. Ocasio-Cortez. Can surveillance camera footage that you 
don't even know is being taken of you be used for facial 
recognition?
    Ms. Whittaker. Yes, and cameras are being designed for that 
purpose now.
    Ms. Ocasio-Cortez. And so, currently, cameras are being 
designed. People think, you know, I am going to put on a cute 
filter and have puppy dog ears and not realize that that data 
is being collected by a corporation or the state, depending on 
what country you are in, in order to track you or to surveil 
you, potentially for the rest of your life. Is that correct?
    Ms. Whittaker. Yes.
    Ms. Ocasio-Cortez. Do you think average consumers are aware 
of how companies are collecting or storing their facial 
recognition data?
    Ms. Whittaker. I do not.
    Ms. Ocasio-Cortez. And what can a consumer or a constituent 
like mine do if they have been harmed by companies' improper 
collection? In a previous hearing, we were talking about how 
facial recognition oftentimes has had the highest error rates 
for black and brown Americans, and the worst implications of 
this is that a computer algorithm will tell a black person that 
they have likely committed a crime when they are innocent. How 
can a consumer or a constituent really have any sort of 
recourse against a company or an agency if they have been 
misidentified?
    Ms. Whittaker. Right now, there are very few ways. There is 
the Illinois Biometric Information Privacy Law that allows 
private actors to bring litigation against companies for 
corporate misuse of biometric data. But, one, you have to know 
it's been collected. Two, you have to know it's been misused. 
And three, you have to have the resources to bring a suit, 
which is a barrier to entry that many of those most likely to 
be harmed by this technology cannot surpass.
    Ms. Ocasio-Cortez. So, let's say if you walk into a 
technology store, or as this technology spreads, you just walk 
into a store in the mall, and because the error rates for 
facial recognition are higher for black and brown folks, you 
get misidentified as a criminal. You walk out, and let's say an 
officer stops you and say someone has accused of a crime, or we 
think that you have been accused of a crime. You have no idea 
that facial recognition may have been responsible for you being 
mistakenly accused of a crime. Is that correct?
    Ms. Whittaker. That's correct. And we have evidence that 
it's often not disclosed.
    Ms. Ocasio-Cortez. And so that evidence is often not 
disclosed, which also compounds on our broken criminal justice 
system, where people very often don't get entitled to the 
evidence against them when they are accused of a crime. Is that 
correct?
    Ms. Whittaker. Yes, the Willie Lynch case in Florida is 
case in point.
    Ms. Ocasio-Cortez. So, what we are seeing is that these 
technologies are almost automating injustices, both in our 
criminal justice system, but also automating biases that 
compound on the lack of diversity in Silicon Valley as well?
    Ms. Whittaker. Absolutely. These companies do not reflect 
the general population, and the choices they make and the 
business decisions they make are in the interest of a small 
few.
    Ms. Ocasio-Cortez. So, you know, Madam Chairwoman, I would 
say this is some real-life Black Mirror stuff that we are 
seeing here. And I think it is really important that everyone 
really understand what is happening because this is--and as you 
pointed out, Ms. Whittaker, this is happening secretly as well, 
correct?
    Ms. Whittaker. Yes.
    Ms. Ocasio-Cortez. All right. Thank you. And that is my 
time.
    Chairwoman Maloney. Thank you.
    The gentleman from Pennsylvania, Mr. Keller, is now 
recognized for five minutes.
    Mr. Keller. Thank you, Madam Chair.
    And I just want to say that we all represent many people 
that are probably not familiar with the commercial and the 
Government's use of the facial recognition technology. I mean, 
there is a lot of technology out there. So, I am grateful for 
the witnesses being here to help shed a little bit of light on 
the topic of facial recognition technology.
    And when we look at the--if there is a proper approach 
toward regulating the use of facial recognition technology, you 
know, we need to balance personal privacy with whatever 
appropriate use there may be as a tool to make, you know, the 
Government or law enforcement capabilities more effective in 
what they do. And the reason I say this is several years ago 
something happened in the legal community called the ``CSI 
effect,'' where television shows exaggerated the prevalence of 
DNA and forensic evidence and the ease of its processing in 
criminal cases. You know, defense attorneys then used the 
public's new perception of this evidence to claim the lack of 
enough forensic evidence meant that the police didn't do their 
due diligence.
    You know, today many law enforcement television shows and 
movies utilize, you know, and they reference facial recognition 
technology as part of their storytelling. You know, so there 
are a lot of concerns here. And you know, I have concerns with, 
you know, the Fourth Amendment and all of our rights that we 
have.
    And I guess, Mr. Parker, if you could just maybe explain to 
what extent do you think the current pop culture is filled with 
an exaggerated or distorted view of how prevalent the use or if 
there is an appropriate use of facial recognition technology?
    Mr. Parker. Yes, I guess, first of all, I do think that it 
has--I mean, if you look at the portrayal of the technology in 
the media, it's far beyond what we can do right now. So, that's 
one thing to consider. I think the other thing is that, you 
know, we mentioned earlier about, you know, what's happening in 
China. Unfortunately, their government by policy is using 
technology, not just this one, many others to persecute certain 
groups. And obviously, that's a horrible example of how 
technology can be misused.
    So, I think also the capability is different there. I'm not 
an expert on China either, but you know, to use a facial 
recognition system, there has to be a data base with people 
enrolled in it, you know? And so, you know, I suspect there is 
a large data base like that over there.
    But I can speak on behalf of our members. You know, we have 
no interest in helping the Government at any level here do mass 
surveillance of citizens engaged in lawful activity. We have no 
interest in that. And that's not the case right now as a 
system, and I haven't seen evidence that that's what's 
intended, but certainly that's not a place we want to go.
    Mr. Keller. Yes. And you mentioned, you know, technology 
can be a great tool, and it can. And it goes with anything. Our 
phones can keep us very well-connected and do things. It can 
become a great hindrance and distraction, too, and be used for 
a lot of malicious and evil things. I mean, a lot of people now 
bully using, you know, social media and so on. So, that can 
happen with anything, and it is a matter of how we effectively 
regulate that and make sure it doesn't get used 
inappropriately.
    Also, Mr. Parker, do you think we could be looking at the 
possible new CSI effect in terms of facial recognition and the 
use of law enforcement? Do you think that----
    Mr. Parker. Yes, so that is a risk. And I think you are 
right to identify that. I think the key here is to have really 
locked down and thorough use policies and constraints. I think 
there's many uses in both the private sector and the public 
sector where that is being done correctly. There are other 
cases we know less about because there is less transparency. 
But making--you know, part of that is some accountability 
measures that ensure use of those systems are auditable to make 
sure that they are only being used for the purposes specified 
by the people who have authorization to do it.
    Mr. Keller. OK. I appreciate that because this is a very 
sensitive issue, and I do appreciate the opportunity of having 
these hearings so that more people are aware of what is 
happening.
    Thank you, and I yield back.
    Chairwoman Maloney. Thank you.
    I recognize the gentlewoman from New Mexico, Ms. Haaland, 
for questions.
    Ms. Haaland. Thank you, Mr. Chair.
    Thank you all so much for being here today. We appreciate 
your time and effort in this hearing.
    I recently read that some employers have begun using facial 
recognition technology to help decide who to hire. At certain 
companies, such as Hilton and Unilever, job applicants can 
complete video interviews using their computer or cell phone 
cameras, which collect data on characteristics, like an 
applicant's facial movements, vocal tone, and word choice.
    One company offering this technology, HireVue, collects up 
to 500,000 data points in a 30-minute interview. The algorithm 
then ranks the applicant against other applicants based on the 
so-called ``employability score.'' Job applicants who look and 
sound like the current high performers at the company receive 
the highest scores.
    Ms. Whittaker, I have two questions for you. One, isn't it 
true that the use of facial recognition and characterization 
technology in job application processes may contribute to 
biases in hiring practices? And, if yes, can you please 
elaborate?
    Ms. Whittaker. It is absolutely true. And the scenario that 
you described so well is a scenario in which you create a 
biased feedback loop in which the people who are already 
rewarded and promoted and hired to a firm become the models for 
what a good employee looks like. So, if you look at the 
executive suite at Goldman Sachs, which also uses HireVue for 
this type of hiring, you see a lot of men, a lot of white men.
    And if that becomes the model for what a successful worker 
looks like and then that is used to judge whether my face looks 
successful enough to get a job interview at Goldman Sachs, we 
are going to see a kind of confirmation bias in which people 
are excluded from opportunity because they happen not to look 
like the people who had already been hired.
    Ms. Haaland. Thank you so much for that.
    So, Ms. Whittaker, would you agree that granting higher 
employability scores to candidates who look and sound like 
high-ranking employees may lead to less diversity in hiring 
then?
    Ms. Whittaker. I would agree, and I would also say that 
that methodology is not backed by scientific consensus.
    Ms. Haaland. Thank you.
    Ms. Leong, do you envision any privacy concerns that may 
arise when employers collect, store, and use the data generated 
from video job interviews?
    Ms. Leong. Yes. Thank you for the question.
    That is absolutely a concern since the individuals may not 
be aware of what data is being collected, especially if some of 
those systems are being used maybe even in an in-person 
interview, but there is a camera running that's collecting some 
sort of characterization profile and that the person may or may 
not be aware of that or whether that's part of the 
decisionmaking process for their application.
    Ms. Haaland. Thank you so much.
    So I, like many of my colleagues, have expressed, am 
concerned over the use of this technology. I am concerned that 
face recognition technology disenfranchises individuals who 
don't have access to Internet-or video-enabled devices, which 
is an awful lot of people in this country because broadband 
Internet is an issue in so many rural communities and other 
communities throughout this country. I am worried that relying 
on algorithms to predict high-ranking employees will only 
inhibit the hiring of a more diverse work force.
    Dr. Romine, your testimony today highlighted many of these 
risks. NIST showed that commercial face recognition algorithms 
misidentified racial minorities and women at substantially 
higher rates than white males. As Members of Congress, we must 
develop legislation to ensure we get the best of the benefits 
of this technology while minimizing the risks of bias in 
employment decisions.
    And Chairwoman, I yield back.
    Chairwoman Maloney. That concludes our hearing. We have no 
other witnesses. The ranking member, I am recognizing him and 
others on this side of the aisle for five minutes, and then we 
will close with five minutes.
    Mr. Jordan. I thank the chair, and I won't take all five. 
Just the broad outlines of what we are trying to do 
legislatively sort of as a start, and we are working with the 
chair and with members of the majority as well, really is first 
just an assessment. I am talking again largely what Government 
is doing, what the Federal Government is doing.
    So, the first thing we would like to ask for is we just 
want to know which agencies are using this? How they are using 
it? To what extent is it happening? And as I think several of 
you testified, but certainly Ms. Whittaker, we just don't know 
that. We don't know to what extent is the FBI using it. To what 
extent are other agencies using it, IRS, any other agency?
    We found out a few years ago the IRS was using stingray 
technology, which was like what does the IRS need that for? So, 
first part of what we hope will be legislation that we can have 
broad support on, that the chairman and both Republicans and 
Democrats can support, is tell us what is going on now.
    And then, second, while we are trying to figure that out, 
while the studying and we are getting an accountability and 
what is all happening, let's not expand it. Let's just start 
there. Tell us what you are doing and don't do anything while 
we are trying to figure out what you are doing. And then once 
we get that information, then we can move from there.
    That is what I hope we can start with, Madam Chair. And 
frankly, what we have been working with now for a year, staffs 
for both the majority and the minority. So, I hope--I mean, I 
see a number of you nodding your heads. I hope that is 
something, someplace that you all would be happy and would be 
supportive of us doing as a committee and as a Congress just to 
figure out what is going on.
    With that, I yield to my colleague from North Dakota, if 
that is okay, Madam Chair, for the remainder of our time?
    Chairwoman Maloney. Sure.
    Mr. Armstrong. Thank you. CSI was my favorite show when I 
practiced criminal defense, so----
    [Laughter.]
    Mr. Armstrong. And if this body would pass a law into 
effect that shut off everybody's facial recognition on their 
iPhones tomorrow, I think we would have a whole different kind 
of perspective on this from our citizens.
    Identifying people quickly and easily has so many positive 
law enforcement and safety applications that I think it would 
be irresponsible to disregard this technology completely. More 
importantly, I think the private sector--and so my intent when 
I am asking these questions is not to demonize law enforcement. 
They will use whatever tools are available to them, and they 
should.
    And I think we should also recognize that there are very 
responsible large corporations that want to get this right. And 
they don't want to get it right just for the bottom line, 
although that is helpful. They have corporate cultures as well, 
and more importantly, there are those of them arguing for a 
Federal regulatory framework.
    Our job is to get it right. Our job is to ensure that we 
have responsible regulation that protects the privacy of all 
Americans. But part of doing that is recognizing that it is 
here, and in some way, shape, or form, it is going to continue 
to be here. And there are a tremendous amount of positive 
applications that can be used.
    But there are dangers, and there are significant dangers. 
Because for every reason why there is a positive application 
for identifying people quickly, that is an invasion on 
everybody's privacy who is in that particular space. So, we are 
going to work with it. We are going to continue to use it. It 
is causing tremendous consumer convenience.
    There are lots of different applications, but we have to be 
cognizant of the fact that this is a little different than a 
lot of other things because identity is something that can 
never go away once it has been identified. And right to free 
association and the right to do those things is fundamental in 
the American population. And anything that has a chilling 
effect on that has to be studied very, very closely.
    And I agree with Mr. Jordan, in when we know how this is 
being used. And I also agree with Mr. Connolly. Technology will 
advance. Human reviews will exist. Things will happen. This 
will get better and better all the time.
    I don't want any false positives. And I don't want any 
false positives based on race, age, or gender. But my number-
one concern is not only those false positives, it is the actual 
positives--where they are doing it, how they are doing it, why 
they are doing it. And we have to understand that while this 
technology has a tremendous benefit to a lot of people, it 
poses real significant and unique dangers to fundamental, basic 
First Amendment rights, Fourth Amendment rights. And we have to 
continue to work forward.
    I should also say this isn't the first time the Government 
has been behind the eight ball on these issues. We are so far 
behind on online piracy. We are so far behind on data 
collection, data sharing, and those types of issues. And one of 
the dangers we run into with that is by the time we get around 
to dealing with some of these issues, society has come to 
accept them. And how the next generation views privacy in a 
public setting is completely different than how my generation 
and generations above us viewed privacy in a public setting. 
And the world is evolving with technology, and this is going to 
be a part of it going forward.
    So, I appreciate everybody on both sides of this issue, and 
I really appreciate the fact that we had this hearing today. 
With that, I yield back.
    Chairwoman Maloney. I thank all of the panelists and all of 
my colleagues today for participating in this very important 
hearing. We have another member, Mr. DeSaulnier is on his way, 
and he has been misidentified. He is a member of the committee 
but is at another committee. He is rushing back to share his 
experiences with us, and I want to allow him to give the 
information that he has on this issue personally.
    But I do want to say that one of the things that came out 
of the hearing is that it really is not ready for primetime, 
and it can be used in many positive ways. But it can also, as 
many witnesses pointed out, Ms. Whittaker even showed a case 
allegedly where a person was innocent yet put into jail based 
on false information of his identity, which certainly needs to 
be investigated. But it can be used for positive ways, but also 
severely impact the civil rights and liberties of individuals.
    At this point, I would like to recognize my colleague from 
the great state of California, that he finish his questions and 
his statement, because he was misidentified. He was one of the 
28 that the American Civil Liberties Union showed was 
misidentified. So, I recognize my colleague now.
    Mr. DeSaulnier. Thank you, Madam Chair.
    I did have a constituent at a town hall say that in my case 
it was actually a step up from being a Member of Congress to 
being a criminal. You know, I was quite offended on behalf of 
all of us that somebody would----
    [Laughter.]
    Mr. DeSaulnier. Well, I really want to thank the chair and 
the ranking member for having this meeting.
    It is really important, being from the Bay Area, having had 
a relationship with a lot of these tech companies, and having 
that relationship strained recently. And the benefit that this 
technology could give us, but the overmarketing of the benefit 
and the lack of social responsibility, as Mr. Gomez said.
    In the past, I had a privacy bill in the legislature that 
was killed, and it basically came from a district attorney in 
northern California, who told me about a serial rapist who was 
getting his victims' information from third-party data that he 
was paying for, and we provided an opt-out. It was killed 
fairly dramatically in the first committee in the Assembly 
after I was able to get it out of the Senate. I tried to get 
Mr. Gomez to help me in those days.
    So, in that context, if I had a dime for every time one of 
these companies told me when I asked a reasonable question that 
I was inhibiting innovation, I would be a wealthy person. And I 
appreciate the work you do, but in the context of facial 
recognition and what is a meaningful sort of reflection, I have 
said this to this committee before, that Justice Brandeis 
famously said, ``Americans have a right to be left alone.'' How 
are you left alone in this kind of surveillance economy?
    So, facial recognition, important to get it right in my 
personal experience, but also the overlay of all the other data 
accumulation. So, how do we get, Ms. Leong, first of all, what 
is the danger in allowing companies, when we have seen Facebook 
absorb a $5 billion penalty when they quite consciously--and I 
refer to some of my former friends in the tech company in the 
Bay Area as being led by a culture of self-righteous 
sociopaths. Where they think that it is all right to take 
advantage of people, and they get reinforced by the money they 
make, without thinking of the social consequences.
    So, given that they were willing to absorb a $5 billion hit 
by ignoring the settlement that they agreed to, in this kind of 
culture, what is the danger in allowing companies like Facebook 
to having access to not just facial templates, but the 
interaction with all the other data they are collecting?
    Ms. Leong. Thank you very much for the question.
    I think that demonstrates greatly the comment that was made 
earlier about the interrelationship between public and private 
uses of this technology and how those sometimes can feed off of 
each other in beneficial or not so beneficial ways. And your 
earlier comment was to the nature of our surveillance 
technology, I think is the underlying question, in terms of 
what is it that we want to accept and live with in our country 
based on our values, and then how does technology enable that?
    I was not asked to show my identification to come into this 
building today, even though most buildings in Washington I 
would have to show it. To show up and go to a meeting, I'd have 
to give my I.D., but because this is a Government building, I 
was checked for a physical security threat with a scanner, but 
I was not required to identify myself to come in. I would hope 
that that would not change just because now it could be 
collected passively or I could be identified off of a video 
feed, that I still have the right to come into this place of 
government without that.
    And I think that that demonstrates that we need to focus on 
what the things are that we are protected, which has been 
discussed so clearly here today in terms of our values and 
freedoms and liberties. And then how we don't let the 
technology, because it's here, because it can do certain 
things, or because it's even convenient that it does certain 
things, impinge on those in ways that we don't think through 
carefully and not ready to accept those compromises.
    Mr. DeSaulnier. So, how do Americans be allowed to be left 
alone in this environment? What does affirmative consent look 
like?
    Ms. Leong. Well, in a commercial setting or a commercial 
context, the companies should not be using facial recognition 
technology unless a person has said they want to use it for the 
benefit or convenience that it provides. So, if I want to use 
it as a member of a limited membership retail establishment or 
if I want to use it to get VIP privileges at a hotel or 
expedite my check-in at a conference, I can choose to do that, 
but I would know that I was doing it. I would have to enroll in 
that system consciously. It's not something that could happen 
to me without my awareness.
    Mr. DeSaulnier. OK. And who owns the data when you look at 
this? We have had hearings about car companies saying they own 
the diagnostics and the GPS. All these private sectors say they 
own it. Shouldn't we own that?
    Ms. Leong. Ownership of data is a very complicated topic 
and way to look at it because it isn't something that should be 
able to necessarily be sold, which is really the nature of 
property. But in terms of the rights to who has to use it, yes, 
that should be very clearly spelled out, in terms of if I've 
agreed to a certain amount of service in return for providing--
for enrolling in a facial recognition system, I have a 
reasonable expectation not to have that data scraped or used 
for some other undisclosed purposes that I'm not aware of.
    Mr. DeSaulnier. Thank you. Thank you, Madam Chair. Thank 
you for indulging my schedule.
    Chairwoman Maloney. Thank you so much. I am so glad you 
could get back.
    And just in closing very briefly, I think this hearing 
showed that this is a wide-scale use. We don't even have a 
sense of how widely it is being used, yet there is very little 
transparency of how or why it is being used and what security 
measures are put in place to protect the American people from 
that use and their own privacy concerns.
    And we also have the dual challenge not only of encouraging 
and promoting innovation, but also protecting the privacy and 
safety of the American consumer. I was very much interested in 
the passion on both sides of the aisle to work on this and get 
some accountability and reason to it. And I believe that 
legislation should be bipartisan. I firmly believe the best 
legislation is always bipartisan. And I hope to work in a very 
committed way with my colleagues on this side of the aisle and 
the other side of the aisle to coming up with common sense 
facial recognition legislation.
    I would now like to recognize for closing Mr. Gomez, who 
was also misidentified and has personal experience with this. 
So, thank you, and thank you very, very much to all of our 
panelists.
    Mr. Gomez. Thank you, Madam Chair.
    First, I just want to thank all the panelists for being 
here. All the questions we have had, you know, we have twice as 
many more that we didn't even have a chance to ask. I want 
people to walk away understanding that this is a technology 
that is not going away. It is just going to get further and 
further integrated into our lives through the private sector 
and through Government. Now we have to figure out what does 
that mean.
    At the same time, I don't want people to think that false 
positives are not a big deal because for the people who are 
falsely identified as a particular person and it changes their 
life, it is a big deal to them. So, when people like downplay 
it as like, oh, it is getting better, it is not that big of a 
deal, well, to that one person that goes to jail, the one 
person who gets pulled over, the one person that maybe doesn't 
make it to work on time, they lose their job, and has a ripple 
effect of devastation on their lives, it matters to them. And 
it should matter to all of us.
    So, it is not one or the other because I do believe that 
this will get better and better and better. And we have to put 
the parameters on it on that use of that technology, but there 
is still a lot of questions that we have to do.
    But Ms. Whittaker described it correctly because when I 
started looking into this issue, I did run into that brick wall 
of national security claims, plus the corporate sector saying 
that we have, you know, it is proprietary, this information, 
when it comes to our technology, and we are not going to tell 
you what it says, how accurate it is, who we are selling it to, 
who is using it.
    That wall must come down. And that is what I think that we 
share across the political spectrum. How do we make sure that 
that wall comes down in a responsible way that keeps innovation 
going, keeps people safe, but respects their liberties and 
their freedom?
    So, with that, I yield back. Madam Chair, thank you so much 
for this important hearing.
    Chairwoman Maloney. And I thank you. And I would like to 
thank all of our witnesses.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, which will be forwarded to the 
witnesses for their response. I ask the witnesses to please 
respond as promptly as you can.
    This hearing is adjourned, and thank you.
    [Whereupon, at 12:55 p.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
